<html>
<title> - ENSURING EFFECTIVE PREPAREDNESS AND RESPONSE: LESSONS LEARNED FROM HURRICANE IRENE AND TROPICAL STORM LEE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  ENSURING EFFECTIVE PREPAREDNESS AND 
 RESPONSE: LESSONS LEARNED FROM HURRICANE IRENE AND TROPICAL STORM LEE

=======================================================================

                             FIELD HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                        PREPAREDNESS, RESPONSE,
                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 29, 2011

                               __________

                           Serial No. 112-59

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/





                  U.S. GOVERNMENT PRINTING OFFICE
74-535                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dbbcabb49bb8aea8afb3beb7abf5b8b4b6f5">[email&#160;protected]</a>  
                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Gus M. Bilirakis, Florida, Chairman
Joe Walsh, Illinois                  Laura Richardson, California
Scott Rigell, Virginia               Hansen Clarke, Michigan
Tom Marino, Pennsylvania, Vice       Kathleen C. Hochul, New York
    Chair                            Bennie G. Thompson, Mississippi 
Blake Farenthold, Texas                  (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                   Kerry A. Kinirons, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
            Curtis Brown, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Tom Marino, a Representative in Congress From the 
  State of Pennsylvania..........................................     2

                               Witnesses

Mrs. MaryAnn Tierney, Regional Administrator, Region 3, Federal 
  Emergency Management Agency:
  Oral Statement.................................................     6
  Joint Prepared Statement.......................................     9
Colonel David E. Anderson, District Commander, Baltimore 
  District, U.S. Army Corps of Engineers:
  Oral Statement.................................................    12
  Joint Prepared Statement.......................................    13
Mr. Glenn M. Cannon, Director, Pennsylvania Emergency Management 
  Agency:
  Oral Statement.................................................    18
  Joint Prepared Statement.......................................    24
Ms. Marita C. Wenner, Volunteer Chair, Pennsylvania State 
  Disaster Committee, American Red Cross:
  Oral Statement.................................................    23
  Joint Prepared Statement.......................................    25
Mr. James J. Brozena, P.E., Executive Director, Luzerne County 
  Flood Protection Authority:
  Oral Statement.................................................    29
  Joint Prepared Statement.......................................    32
Mr. James Good, Owner, Arey Building Supply......................    34

                             For the Record

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Article, The Daily Review......................................    36


  ENSURING EFFECTIVE PREPAREDNESS AND RESPONSE: LESSONS LEARNED FROM 
                 HURRICANE IRENE AND TROPICAL STORM LEE

                              ----------                              


                       Tuesday, November 29, 2011

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                      La Plume, PA.
    The subcommittee met, pursuant to call, at 9:07 a.m., in 
the Theatre in Brooks, Keystone College, Brooks Hall, College 
Road, La Plume, Pennsylvania, Hon. Gus M. Bilirakis [Chairman 
of the subcommittee] presiding.
    Members present: Representatives Bilirakis and Marino.
    Mr. Calpin. My name is Fran Calpin and I am the Senior 
Director of College Relations here at Keystone. On behalf of 
Keystone President Dr. Edward G. Boehm, Jr., and all of the 
Keystone students, faculty, and staff, it is my great pleasure 
to welcome you to Keystone today for this morning's 
Congressional hearing. We extend a special welcome to 
Congressman Tom Marino and Congressman Gus Bilirakis and to the 
witnesses providing testimony here this morning.
    As a leading educational institution in northeastern 
Pennsylvania, founded by families, for families, immediately 
following the Civil War, we are honored to provide this hearing 
to gain additional information and insight into the horrific 
devastation inflicted upon our area after Hurricane Irene and 
Tropical Storm Lee.
    So once again, on behalf of everyone at Keystone, we 
welcome you this morning. Thank you.
    Mr. Bilirakis. The Committee on Homeland Security, the 
Subcommittee on Emergency Preparedness, Response, and 
Communications will come to order.
    The subcommittee is meeting today to receive testimony on 
the impact of Hurricane Irene and Tropical Storm Lee and the 
efforts of Federal, State, local, and non-governmental 
organizations to respond and recover from these disasters.
    I appreciate the effort taken by all those involved to have 
this important field hearing. This is an official Congressional 
hearing, as opposed to a town hall meeting, and as such, we 
must abide by the certain rules of the Committee on Homeland 
Security and the House of Representatives. I kindly wish to 
remind our guests that any demonstrations from the audience 
including applause and verbal outbursts as well as the use of 
signs or placards are a violation of the rules of the House of 
Representatives. It is important that we respect the decorum 
and the rules of this committee. I have also been requested to 
state that photography and cameras are limited to accredited 
press only. I now recognize myself for an opening statement.
    I am Congressman Gus Bilirakis. I am pleased to be here in 
La Plume this morning, and I thank Congressman Marino, your 
great Congressman, and Keystone College for hosting this 
subcommittee, and I have the right colors on here today, orange 
and blue. I went to the University of Florida, so I like to 
wear my orange and blue, but it fits pretty well here this 
morning.
    This year, the subcommittee has focused on ensuring this 
country has effective preparedness response and recovery 
capabilities at all levels of government, and the private 
sector among individuals and communities. This subcommittee has 
assessed the response and recovery efforts to the many storms 
this country has experienced this year. This hearing will 
continue those efforts by assessing the impact of Hurricane 
Irene and Storm Lee, particularly on this area, because this 
area was greatly impacted, and we want to consider the lessons 
learned from those storms so we can continue to enhance our 
preparedness, response, and recovery capabilities.
    Last month, the subcommittee held a hearing at which FEMA 
Administrator Craig Fugate testified to assess FEMA's 
preparedness and response capabilities since the passage of the 
Post-Katrina Emergency Management Reform Act. I think we can 
all agree that FEMA has made great strides over the past 5 
years and it is a far more nimble and forward-leaning 
organization.
    Of course, there is always more work that can be done to 
further improve our capabilities, a point on which of course 
Administrator Fugate agrees. I think he is doing a very good 
job. That is why is so important again that Congressman Marino 
proposed this hearing. I appreciate that, Congressman. We must 
also assess what worked well and should be replicated in future 
disaster response and recovery efforts. We must also address 
any shortcomings so they do not happen again.
    We have a distinguished panel of witnesses here today that 
will help us with this assessment. I look forward to your 
testimony and to working with you to enhance our preparedness 
and response and recovery capabilities.
    Now I recognize my very good friend, the vice chairman of 
this subcommittee, Mr. Tom Marino, for any opening statement he 
may have. He has been working tirelessly to ensure this area is 
well on the road to recovery. I would like to recognize him. I 
know that Tom has been working very hard, and his heart is 
right here in this Congressional district with his 
constituents. So I recognize you, Tom, for as much time as you 
would like to consume.
    Mr. Marino. Thank you, Chairman, and I really appreciate 
the efforts. Chairman Bilirakis is from Florida, and like 
myself, we are not really morning people but it was very nice 
of you to agree to have this hearing, this official 
Congressional hearing right here in the 10th Congressional 
District, and I thank you on behalf of my constituents.
    I also want to thank the college for having us here as a 
guest. This is my second or third time here. I want to thank 
the president. Thank you so much, sir, for accommodating us. 
The staffs, my staff, Rob, who was instrumental in putting this 
together, the Chairman's staff as well, our committee staff, 
thank you so much. We cannot do this without their work. I want 
to thank the committee Members, the witnesses who are going to 
testify for being here, and you people for coming and seeing 
how the process works. We wanted to bring Washington to the 
district, and I think this is a great opportunity to do that.
    I want to start out by thanking the Chairman again for 
holding this hearing and by welcoming all our witnesses to 
Pennsylvania's 10th Congressional District. I also want to 
thank you all in attendance for taking the time to come and 
hear the important matters we are addressing today at this 
field hearing.
    At the end of August 2011, Hurricane Irene caused severe 
flooding and widespread power outages in eastern Pennsylvania 
and some flooding in central Pennsylvania. With the ground 
saturated and waterways at a very high level, Tropical Storm 
Lee arrived about 1 week later, causing historic widespread 
flooding in most of central and eastern Pennsylvania, 
particularly here in the 10th Congressional district. Ten of 
the 14 counties in the district were impacted by the flood. 
Thousands of residents were evacuated. Many are still living in 
temporary shelters. The storm knew no boundaries. It hit 
individuals and businesses, Government offices and schools, 
farms, cemeteries, and churches.
    I had just been back in Washington, DC, for a few days 
after Labor Day when I learned that the communities in the 
district were threatened by severe flooding. My staff and I 
immediately left Washington and headed back to the district so 
we could be here in person to assess the damage and do all I 
could to help. I flew over damaged communities several times to 
assess the damage from an aerial perspective. I then spent the 
next few weeks in the district visiting flood victims in every 
affected county in the 10th Congressional district. During that 
time, I saw entire bridges and roads washed away in Wyoming 
County, sinkholes and roads completely washed away in 
Northumberland County. I walked the cracked levee in Forty 
Fort, Luzerne County. I watched the effects of broken river 
gauges in Luzerne County and the fear in all the people in 
Wyoming Valley. I walked the streets of Athens and saw blocks 
of homes that were completely, completely destroyed. I visited 
homes in Shamokin and Coal Township that had water up to the 
second floor. I stood in a cemetery in Susquehanna County that 
had uprooted coffins and vaults. I listened to children in 
Union County asking me to help their mom and dad fix their home 
that had 5 feet of water in the living room.
    I traveled to many businesses, both large and small, that 
were affected like Knoebels Amusement Park in Northumberland. I 
watched the workers and owners clean up 4 inches of flood mud 
that covered the entire park. I stood in the Danville Middle 
School that had water in the entire school. I watched the 
destruction from the Susquehanna River in Sunbury. I spoke to 
people in Sullivan County who watched half of their property 
washed away. I stood in a VFW in Halstead that had 6 feet of 
water in the basement. I walked through a trailer park that was 
just completely washed away.
    I have seen the destruction the floodwaters caused in 
Selinsgrove and I have heard the stories from across the 
district that echoed the same concerns: My stream is filled 
with debris deposited over past years, we are overflowing the 
banks, resulting in damage to homes, roads, and bridges.
    While I was personally seeing and hearing from residents 
the devastation caused by the flooding, I and my staff remained 
in constant contact with representatives of the Federal 
Emergency Management Agency, Pennsylvania Governor Tom Corbett, 
PEMA, Members of Congress in neighboring districts, State 
legislators, and officials at the State, county, and municipal 
level. I am extremely impressed with the way officials on all 
levels worked so well together, given the extremely difficult 
circumstances. I have never seen Federal Government, the State 
governments, and the local governments work so closely together 
than we saw over the last several months. I thank everyone 
involved for this tremendous effort and work that has been done 
to protect and help the citizens and communities that have been 
so terribly affected. Our first responders and rescue teams 
were heroes who went beyond the call of duty to save lives, and 
an example of that: I was in a town that was completely 
flooded. I was standing out in front of, I think it was a fire 
chief's home that was lost, just completely lost. But he wasn't 
working in his home, he was helping the neighbors try and save 
what they had.
    The Red Cross workers and volunteers provided desperately 
needed aid and comfort to the victims of the flood. 
Additionally, the cooperation and coordination among State, 
county, local, and Federal entities truly has been remarkable. 
I am hopeful that we can all use the lessons learned from this 
disaster to further improve response capabilities for the next 
disaster. I realize that the road to recovery may be a long one 
but I believe that the spirit I saw in visiting with those 
affected by the flooding will lead the way.
    I want to make clear that this is not a finger-point or 
blame-casting hearing. This is a hearing whereby we know we are 
not going to be able to stop flooding but what can we do to 
lessen the damage and become more efficient and more effective.
    Chairman, thank so much for allowing me to make an opening 
statement.
    Mr. Bilirakis. My pleasure. Thank you.
    We are pleased now to have a very distinguished panel of 
witnesses before us today on this important topic.
    Our first witness is Mrs. MaryAnn Tierney. Mrs. Tierney is 
the Regional Administrator for FEMA Region 3. She hasn't 
arrived yet, but she will be here pretty soon. She has been 
delayed, but I understand in the next 5 minutes she will be 
here, but I will go ahead and read her background anyway. Mrs. 
Tierney is the Regional Administrator for FEMA Region 3 based 
in Philadelphia, a position she has held since August 30, 2010. 
As Regional Administrator, she is responsible for coordinating 
FEMA's emergency preparedness, mitigation, and disaster 
response and recovery activities in Pennsylvania, Delaware, 
Washington, DC, Maryland, Virginia, and West Virginia. Wow. 
Prior to joining FEMA, Mrs. Tierney held leadership positions 
in both the Philadelphia and New York City offices of emergency 
management, having managed more than 60 EOC activations in New 
York and Philadelphia. She is a principal member of the 
National Fire Protection Association's technical committee on 
disaster, emergency management and business continuity 
programs. She also has served as an adjunct professor teaching 
graduate-level courses on emergency preparedness. Mrs. Tierney 
received her bachelor's degree in political science from 
American University and her master's of public administration 
from NYU. She has also graduated from the Center for Homeland 
Defense and Security's executive leadership program at the 
Naval Post Graduate School.
    Our next witness is Colonel David Anderson. Colonel 
Anderson is the Commander of the United States Army Corps of 
Engineers, Baltimore district, a position he assumed on July 
17, 2009. In this capacity, Colonel Anderson oversees the 1,300 
employees of the Baltimore district engauged in military 
construction, civil works, and international interagency and 
emergency support. Colonel Anderson previously served as a 
lieutenant in the 17th Engineer Battalion, 2nd Armored Division 
at Fort Hood, commanded an airborne bridge company in the 20th 
Engineer Brigade at Fort Bragg, and was the executive officer 
of the 2nd Engineer Battalion, 2nd Infantry Division at Camp 
Castle in South Korea. Colonel Anderson has also served in the 
Army Congressional Liaison Office as a Legislative Assistant to 
the Secretary of the Army and as the Vice Chief of Staff of the 
Army. Colonel Anderson is a graduate of the United States 
Military Academy and the Industrial College of the Armed 
Forces, where he completed a master's of science degree in 
National security resource strategy. He also earned a master's 
of science degree in engineering from the University of Texas 
at Austin. Welcome, sir.
    Following Colonel Anderson, we will hear from Mr. Glenn 
Cannon. Mr. Cannon is the Director of the Pennsylvania 
Emergency Management Agency, a position to which he was 
appointed by Governor Corbett on January 18, 2011. In this 
capacity, he coordinates FEMA support of county and local 
governments in the areas of civil defense, disaster 
preparedness, planning and response to and recovering from man-
made and natural disasters. Prior to joining PEMA, Mr. Cannon 
served as administrative assistant in the Federal Emergency 
Management Agency where he was in charge of disaster operations 
and was responsible for the development and execution of 
interagency plans and procedures in response to Presidential 
disaster and emergency declarations. Mr. Cannon has also served 
as the County Manager and Chief Operating Officer of Allegheny 
County, the Executive Director of the Pittsburgh Water and 
Sewer Authority, and the Director of the City of Pittsburgh's 
Department of Public Safety. I am partial to Pittsburgh. My dad 
is from Pittsburgh, so I have some Pennsylvanian blood in me. 
Mr. Cannon received his bachelor's degree from Indiana 
University of Pennsylvania, his master's degree from Carnegie 
Mellon University, and his juris doctor degree from Duquesne 
University School of law. Welcome, sir.
    Our next witness will be Ms. Marita Wenner. I hope I am 
pronouncing that right. Ms. Wenner is the volunteer chair of 
the American Red Cross Pennsylvania State Disaster Committee, a 
position she has held since 2008. She is also currently serving 
as the volunteer chairman of the board of the Wayne Pike 
chapter of the American Red Cross. Ms. Wenner has been a member 
of the Disaster Services Human Resources serving as the 
operations manager directorate for Hurricane Irene and Tropical 
Storm Lee in Pennsylvania. Ms. Wenner previously served as the 
executive director of the Wayne Pike chapter of the American 
Red Cross and is a past President of the Association of 
Pennsylvania Red Cross Executives. Welcome.
    Our next witness is Mr. James Brozena. Mr. Brozena is the 
executive director of the Luzerne County Flood Protection 
Authority, a position he assumed in 2007. Prior to this 
position, Mr. Brozena was the County Engineer for more than 20 
years. He has served as Project Manager for Luzerne County on 
the Wyoming Valley levee-raising project, a project he 
continues to oversee as Executive Director. Mr. Brozena has a 
bachelor's in civil engineering from Penn State University and 
is a registered Professional Engineer in Pennsylvania. Thank 
you. Welcome, sir.
    Finally, we will receive testimony from Mr. James Good. Mr. 
Good is the owner of Arey Building Supply and a member of the 
Wysox Chamber of Commerce. Mr. Good also owns several other 
businesses in northern Pennsylvania. Mr. Good is a graduate of 
the Williamsport Area Community College and served in the 
United States Army. Welcome, sir.
    Your entire written statements will appear in the record. I 
ask that you each summarize your testimony for approximately 5 
minutes, and since Mrs. Tierney is here, we will recognize you 
for 5 minutes. Thank you very much.

STATEMENT OF MARYANN TIERNEY, REGIONAL ADMINISTRATOR, REGION 3, 
              FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mrs. Tierney. Thank you. First, Mr. Chairman, I want to 
apologize for being 45 minutes early to the Towanda campus, 
which is a lovely campus. I recommend that you go there if you 
have a chance.
    Good morning, Chairman Bilirakis, Vice Chairman Marino, 
Director Cannon, and guests. My name is MaryAnn Tierney and I 
am the Regional Administrator for Region 3 of the Federal 
Emergency Management Agency headquartered in Philadelphia. It 
is an honor to appear before you today on behalf of FEMA to 
discuss our response and recovery efforts in Pennsylvania 
before, during, and after Hurricane Irene and Tropical Storm 
Lee.
    In my testimony, I will share some of our successes, 
challenges, and lessons learned from these two disasters and 
FEMA's on-going efforts to apply lessons learned to operations 
moving forward.
    Let me begin by reporting that there is consensus that the 
partnership between the Commonwealth and Federal emergency 
response teams generally meet the community's needs and 
expectations in the aftermath of the disaster. I attribute this 
initial success to the teamwork established among key 
stakeholders in the public and private sectors, what we at FEMA 
commonly refer to as the whole community approach to emergency 
management. At this very early stage in the process, we have 
awarded well over a quarter-billion dollars in disaster relief 
to Pennsylvanians.
    I especially welcome the opportunity to speak with you, 
Chairman Bilirakis, and Vice Chairman Marino after we last met 
at FEMA headquarters. The briefing was co-hosted by 
Administrator Craig Fugate and Deputy Administrator Richard 
Serino this past February 8 where we discussed the agency's 
capabilities to respond to and recover from disasters.
    It is unfortunate that these recent disasters have so 
heavily impacted the Commonwealth but I thank you for being 
here to discuss the practical applications of those 
capabilities after seeing the impact the recent storms have had 
on Pennsylvania's families and communities.
    Strategic decisionmaking, preparedness measures, and 
decisive preemptive action well before the storm hit were 
essential in ensuring a successful recovery. FEMA worked 
closely with State and local officials including Director 
Cannon and his team to prepare and assist impacted communities 
and individuals. FEMA pre-positioned its incident management 
assistance team in Pennsylvania to assist operations at the 
Initial Operating Facility, or IOF, as soon as they were 
needed. FEMA strategically staged resources in several 
locations to ensure maximum flexibility and distribution based 
on the storm's eventual track. This enabled FEMA to promptly 
support the Commonwealth's request for disaster assistance 
including the activation of 6 National urban search and rescue 
teams and 20 community relations teams deployed within 12 hours 
of the declaration. FEMA worked with State emergency management 
officials to quickly conduct Preliminary Damage Assessments, or 
PDAs, in order to get Federal disaster assistance approved 
expeditiously.
    From August 3 to October 7, along with our State and local 
partners, we performed PDAs in 39 Pennsylvania counties. 
Pennsylvania was granted two major and two emergency disaster 
declarations as a result of these PDAs. The declarations 
allowed FEMA to provide supplemental Federal assistance to the 
Commonwealth under three major programs: Public Assistance, or 
PA, for the repair of damage infrastructure; Individual 
Assistance, or IA, for individuals and business disaster 
relief; and hazard mitigation for the prevention of future 
flooding incidents. In total, 29 counties have been designated 
to receive disaster relief under the IA programs, 35 for Public 
Assistance, and all counties for hazard mitigation. To support 
this effort, FEMA currently has 600 employees working out of 
the Harrisburg Joint Field Office, or JFO, and in the affected 
counties.
    Since the initial declaration for Hurricane Irene, FEMA has 
provided support to our Commonwealth partners by providing 
applicant briefings and kickoff meetings. Of the 1,057 kickoff 
meetings scheduled, 697 have been completed. The Commonwealth 
is expecting between 1,500 and 2,000 applications which will 
result in the writing of approximately 6,000 project 
worksheets.
    An effort of this magnitude does not occur without 
challenges and lessons learned. Although quick is never quick 
enough, as of today, FEMA has obligated more than $2.6 million 
for Tropical Storm Lee and $417,000 for Hurricane Irene. In 
addition to the PA program, 29 counties have been designated 
for assistance through the Individuals and Households Program, 
or IHP. Part of the IA program for both disasters. IHP provides 
housing assistance and other needs assistance through financial 
or direct housing assistance. As of November 27, more than $129 
million has been awarded to individuals and families in 
Pennsylvania through the IHP program.
    To ensure that all eligible survivors have access to 
disaster assistance, FEMA supported the Commonwealth in opening 
23 Disaster Recovery Centers, or DRCs. The first DRC was opened 
less than 72 hours after Tropical Storm Lee was declared. Since 
then, more than 27,000 survivors have visited and received 
assistance at these locations.
    One of FEMA's top priorities Nation-wide is to provide 
temporary housing to disaster survivors. In April 2011, FEMA 
decided to use only Department of Housing and Urban 
Development-regulated manufactured homes. These manufactured 
homes are built to HUD-certified standards and are the same as 
any manufactured housing units consumers across the country may 
purchase. Today, more than 7 million people throughout the 
United States live in HUD-regulated manufactured homes as their 
primary residence.
    We continue to streamline the way we coordinate with our 
emergency management partners, modifying our preparedness 
response and recovery strategies in light of lessons learned. 
Earlier, I mentioned whole community. This is an approach that 
recognizes that FEMA is only a part of the Nation's emergency 
management team. To successfully prepare for, protect against, 
respond to, recover from, and mitigate all hazards, we must 
work with the entire emergency management community including 
governments, businesses, and the public.
    This September's National Recovery Tabletop Exercise held 
in Region 3 was our first opportunity to explore the 
application of the National Disaster Recovery Framework, or 
NDRF using a large-scale multi-State catastrophic disaster 
scenario. The NDRF defines coordination structures, leadership 
roles, and responsibilities, and guidance for Federal agencies, 
State, and local and Tribal and territorial governments, and 
other partners involved in disaster planning and recovery.
    From the earliest moments, FEMA worked closely with PEMA to 
identify obstacles or challenges to response and recovery 
effort. We included Commonwealth staff in the JFO, in the DRC 
and on our PA teams, which greatly enhanced our effective 
collaboration and essential local knowledge.
    Although mission assignment requests, which are the means 
by which we test other Federal agencies, were handled capably 
through regional office coordination, we want to make the 
process even faster. In the future, the mission assignment 
manager will be embedded with the IMAT team to streamline and 
expedite the process of engaging our Federal partners in 
response efforts.
    As we continue to support the Commonwealth in on-going 
recovery efforts, FEMA's priority will be addressing survivors' 
unmet needs and rebuilding impacted communities. Realize that 
some of the best ideas for local response and recovery come 
from outside FEMA. Any constructive suggestions that the 
committee and our partners can offer will no doubt contribute 
to an even more robust response and recovery during future 
disasters.
    I thank you for the opportunity to appear before you today, 
and I am happy to answer any questions you may have.
    [The statement of Mrs. Tierney follows:]

                 Prepared Statement of MaryAnn Tierney
                           November 29, 2011

                              INTRODUCTION

    Chairman Bilirakis and distinguished Members of the subcommittee, 
my name is MaryAnn Tierney and I am the Regional Administrator for the 
Federal Emergency Management Agency (FEMA) Region III Office. It is an 
honor to appear before you today on behalf of FEMA to discuss our 
response and recovery efforts in Pennsylvania before, during, and after 
Hurricane Irene and Tropical Storm Lee. In my testimony today, I will 
discuss our successes, challenges, and lessons learned from these two 
disasters and FEMA's on-going efforts to apply lessons learned to 
improve the way we do business.

             RESPONSE AND RECOVERY EFFORTS IN PENNSYLVANIA

    FEMA worked closely with State officials before, during, and after 
Hurricane Irene and Tropical Storm Lee to prepare and then assist the 
affected communities and individuals. This included ensuring FEMA 
representatives were on scene with the appropriate State and local 
officials prior to Hurricane Irene's impact, which began late on August 
26, 2011. We also provided continued support to State and local 
officials during response and recovery operations.
    Days before Irene made landfall, FEMA pre-positioned numerous 
Incident Management Assistance Teams (IMAT) along the Eastern Seaboard 
to coordinate with State, Tribal, and local officials to identify needs 
and shortfalls affecting potential disaster response and recovery 
efforts. In Pennsylvania, the IMATs had pre-designated support staff 
ready to be deployed to assist operations at the FEMA Initial Operating 
Facility (IOF) as soon as they were needed. FEMA also strategically 
staged resources in several locations before Irene's landfall in order 
to be able to react quickly to the storm's eventual track. For example, 
the necessary equipment and work space--located in the Pennsylvania 
Emergency Management Agency (PEMA) building--was ready prior to the 
staffing of the facility. This enabled FEMA to promptly support the 
Commonwealth's request for Federal assistance, including the activation 
of six National Urban Search and Rescue Teams.
    FEMA also deployed Community Relations (CR) Teams to assist with 
response and recovery. CR Specialists build working relationships among 
FEMA and our partners at the State and local level. In Pennsylvania, 
once the Presidential Disaster Declarations were announced, these CR 
teams were on the ground within 12 hours, making contact with 
individuals, businesses, community leaders and local officials to 
assist them in dealing with the events. CR Specialists were also 
deployed to support Disaster Recovery Centers (DRC) and assist with the 
closing of shelters.
    Currently, there are two active Emergency Declarations, one which 
was signed by President Obama on August 29, 2011, due to Hurricane 
Irene, and the second, which he signed on September 8, 2011, due to 
Tropical Storm Lee. Both Emergency Declarations authorized FEMA to 
provide Emergency Protective Measures including Direct Federal 
Assistance under the Public Assistance program to the counties 
identified by Governor Corbett.
    In addition, there are two active major disaster declarations, one 
which was signed by the President on September 3, 2011, in response to 
Hurricane Irene, and the second which he signed on September 12, 2011, 
in response to Tropical Storm Lee. The major disaster declaration 
issued for Hurricane Irene authorizes Individual Assistance for 11 
counties, Public Assistance for 14 counties and Hazard Mitigation for 
the entire Commonwealth. The major disaster declaration issued for 
Tropical Storm Lee authorizes Individual Assistance for 28 counties, 
Public Assistance for 25 counties, and Hazard Mitigation for the entire 
Commonwealth.
    Given the wide area of the Commonwealth affected, FEMA worked with 
State emergency management officials to quickly conduct Preliminary 
Damage Assessments (PDA) to get Federal disaster assistance approved as 
fast as possible. From August 30 to October 7, 2011, FEMA, working with 
State and local officials, performed PDAs for 39 counties in 
Pennsylvania. Subsequent to the declarations, FEMA has worked to 
obligate the funding to eligible communities and individuals. This is 
especially crucial for Public Assistance construction projects like 
road repair, which, if not completed in the next couple of months, will 
not be able to commence until spring of 2012 due to winter conditions.
    To support this effort, FEMA currently has 600 employees working in 
the Joint Field Office (JFO) and in the affected counties to respond to 
the needs of the citizens and the local governments. Our PA staff is 
working diligently with the PEMA to prioritize local government 
projects and support the writing of the project worksheets. Since the 
initial declaration for Hurricane Irene, Commonwealth officials have 
worked with county Emergency Managers to schedule and conduct Applicant 
Briefings, where local officials in all designated counties learn about 
available assistance and eligibility requirements. FEMA also supported 
PEMA staff at applicant Kickoff Meetings. At these meetings, each 
applicant's needs are assessed and a plan for the repair of the 
applicant's facilities is prepared. There are 1,057 Kickoff Meetings 
scheduled in the months of October through December and to date, 697 
have been completed. The Commonwealth is expecting between 1,500-2,000 
applications, which will result in the writing of approximately 6,000 
project worksheets.
    FEMA is working closely with the Commonwealth to prioritize 
assistance to those communities most in need of immediate assistance. 
For example, we are working to increase our knowledge and awareness of 
local conditions by leveraging the information local officials have to 
increase the speed with which we can provide them the money they need 
to repair and rebuild. As of November 16, 2011, we have obligated 
$921,840 for Tropical Storm Lee, and we are continuing to work with the 
Commonwealth to swiftly approve and award projects for Hurricane Irene.
    In addition to the Public Assistance program, a combined total of 
30 counties have been designated for assistance through the Individuals 
and Households Program (IHP), part of the Individual Assistance 
program, for both disasters. IHP provides housing assistance and grants 
for other serious, disaster-related needs through financial assistance 
or direct housing assistance. Housing assistance includes temporary 
housing (rental or temporary housing unit), repair, and/or replacement 
assistance. IHP also authorizes FEMA to construct permanent housing 
under certain circumstances, in cases where alternative housing 
resources are unavailable, or other forms of FEMA temporary housing 
assistance are not feasible or cost-effective. As of November 16, in 
response to both major disaster declarations, a combined total of $126 
million has been provided to individuals and families in Pennsylvania 
through the IHP program.
    Since the beginning of these disasters, we supported the 
Commonwealth in opening 22 DRCs, with the first DRCs opening less than 
72 hours after Tropical Storm Lee was declared a major disaster. A DRC 
is a readily accessible facility, staffed by Federal, State, local, and 
voluntary agencies, where disaster assistance applicants may go for 
information about FEMA and other disaster assistance programs, for 
questions related to their case, or for the status of applications 
being processed by FEMA. DRCs also provide individuals with information 
on Small Business Administration (SBA) and National Flood Insurance 
Program (NFIP) assistance programs. We will continue to support the 
Commonwealth and its citizens in recovery efforts and identify lessons 
learned to increase the speed and effectiveness of providing assistance 
to disaster survivors.

    APPLYING LESSONS LEARNED TO IMPROVE PREPAREDNESS, RESPONSE, AND 
                                RECOVERY

    As we have done in the past, we will continue to learn from our 
experiences to improve the way we do business. One of FEMA's top 
priorities is to provide temporary housing for disaster survivors. In 
the past, this effort has been hindered by an inability to quickly 
obtain quality housing for survivors. In April 2011, FEMA decided that 
going forward, only Department of Housing and Urban Development (HUD)-
regulated manufactured homes would be procured. These manufactured 
homes are built to HUD-certified standards and are the same as any 
manufactured housing units consumers across the country may purchase. 
Today, more than 7 million people throughout the United States live in 
HUD-regulated manufactured homes as their primary residence. HUD 
regulations for these units set stringent standards for construction 
materials and also require a health notice to be posted in the kitchen 
of each unit.
    Understanding that the effects of winter weather could 
significantly delay the delivery of manufactured homes, PEMA requested 
FEMA move rapidly in meeting the housing needs of disaster survivors. 
Throughout the summer, FEMA has purchased 1-, 2-, and 3-bedroom mobile 
home units built to HUD standards to support on-going housing missions 
and begin backfilling our inventory levels. However, as new units are 
being produced, FEMA continues to deplete our existing inventory of 
units comprised of tested Park Models and Mobile Homes, which meet the 
highest standard of quality. FEMA is also providing the same code-
compliant park models and manufactured homes that comply with the 
Uniform Federal Accessibility Standards, the guidelines that ensure 
buildings and structures are accessible for people with physical 
disabilities.
    We also continue to improve the way we coordinate with our 
emergency management partners, modifying our preparedness, response, 
and recovery strategies in light of lessons learned. This ``Whole 
Community'' approach recognizes that FEMA is only a part of the 
Nation's emergency management team. In order to successfully prepare 
for, protect against, respond to, recover from, and mitigate all 
hazards, we must work with the entire emergency management community. 
The Whole Community includes FEMA and our partners at the Federal, 
State, local, Tribal, and territorial governmental levels, non-
governmental organizations such as faith-based and non-profit groups, 
the private sector and industry, and most importantly, individuals, 
families, and communities, who continue to be our greatest assets and 
the key to our success.
    We learned that our partners need to be more involved in our 
preparedness activities in order to maximize their effectiveness in 
response and recovery. Since 2005, FEMA has sponsored over 750 
National, Federal, regional, State, and local direct support exercises 
in coordination with its partners. This September, we held a National 
Recovery Tabletop Exercise (Recovery TTX) in the Washington 
metropolitan area. This exercise involved the whole community, with 
over 200 participants from Federal, State, Tribal, and non-governmental 
organizations. The Recovery TTX consisted of both plenary and breakout 
group sessions and focused on three planning horizons: Short-term, 
intermediate, and long-term recovery.
    This exercise was also the first opportunity to explore the 
applications of the National Disaster Recovery Framework (NDRF) using a 
large-scale, multi-State catastrophic disaster scenario. The NDRF 
defines coordination structures, leadership roles and responsibilities, 
and guidance for Federal agencies, State, local, territorial, and 
Tribal governments, and other partners involved in disaster planning 
and recovery. The NDRF reflects input gathered through extensive 
stakeholder discussions which included outreach sessions conducted by 
FEMA and the Department of Housing and Urban Development in each of the 
ten FEMA Regions, and forums held in five cities across the country. 
The final NDRF incorporates comments, lessons learned, and 
recommendations from discussion roundtables held with professional 
associations, academic experts, and more than 600 stakeholders 
representing Federal, Tribal, State, and local governments, as well as 
public and private organizations.
    In Pennsylvania, we identified both best practices and areas for 
improvement in coordinating with our partners during response and 
recovery. From the earliest moments, FEMA worked closely with PEMA to 
identify obstacles or challenges to the response and recovery effort. 
Incorporation of Commonwealth staff on JFO, DRC, and PA teams greatly 
enhanced our effectiveness and local knowledge. Having clearly defined 
responsibilities allowed us to deliver services smoothly and 
efficiently. For example, the staging of commodities at Fort Indiantown 
Gap during the response phase was successful because the point at which 
responsibility switched from FEMA to the Commonwealth was clear and 
explicit.
    With time being of the essence during the initial stages of an 
event, we should be moving as quickly as possible to engauge other 
Federal agencies in the response effort. In Pennsylvania, Mission 
Assignment requests--which are the means by which we task other Federal 
agencies--were handled capably through regional office coordination, 
but we want to make this process even faster. We will do this in the 
future by imbedding a Mission Assignment Manager with the IMAT team to 
streamline and expedite the process of engaging our Federal partners in 
response efforts.

                               CONCLUSION

    FEMA is committed to improving its effectiveness in supporting its 
partners in the wake of disasters. A key way we can improve is by 
identifying best practices and lessons learned from our response to 
disasters and incorporating these lessons into our standards and 
guidance. I would like to thank you for the opportunity to appear 
before you today and am happy to answer any questions you may have.

    Mr. Bilirakis. Thank you, Mrs. Tierney.
    I now call on Colonel Anderson. Sir, you are recognized for 
5 minutes.

  STATEMENT OF COLONEL DAVID E. ANDERSON, DISTRICT COMMANDER, 
        BALTIMORE DISTRICT, U.S. ARMY CORPS OF ENGINEERS

    Colonel Anderson. Chairman Bilirakis, Congressman Marino, I 
am Colonel David Anderson, Commander of the U.S. Army District 
in Baltimore. Thanks very much for the opportunity to testify 
today about how our organization plans for, responds to, and 
recovers from high-water events with specific regard to 
Hurricane Irene and Tropical Storm Lee.
    The Corps is a very unique organization. The Baltimore 
District had responsibility in the civil works arena for the 
entire Susquehanna River Basin including the majority of 
central Pennsylvania. To our west, the Pittsburgh District has 
that portion of Pennsylvania that lies outside the Susquehanna 
River Basin and the Ohio Basin, and to our east, the 
Philadelphia District is responsible for the area of the 
Commonwealth that lies within the Delaware Basin, so three 
districts the Corps of Engineers all serve we believe 
seamlessly the citizens of Pennsylvania.
    Responsibility for flood risk management in the United 
States, the topic here today, is of shared responsibility 
between multiple Federal, State, and local government agencies 
including the U.S. Army Corps of Engineers. State and local 
governments are responsible for requesting Federal assistance 
to address flooding for establishing floodplain zoning 
regulations and for enforcing those flood-wise requirements. 
These State and local policies in turn affect the performance 
of flood risk management projects that are constructed and 
maintained either by the Commonwealth or the State governments 
or the Federal Government. In addition, all levels of 
government must ensure the public is educated as to the risk 
they face and actions they should take at times of emergency.
    In late August and early September, the Susquehanna River 
Basin experienced a series of significant precipitation events 
that caused historic flood through the East Coast. First, it 
was Hurricane Irene in late August, and then only a week and a 
half later, Tropical Storm Lee moved up from the Gulf and 
stalled over the basin. The Baltimore District and the Corps of 
Engineers exercised its full range of flood risk management 
programs to address these events as part of the community, this 
team sport that we call emergency response.
    First, under the flood control and coastal emergency 
authority, we dispatched engineers, construction experts, and 
even public affairs officers to area levees and dams to monitor 
water levels, to activate emergency operations procedures and 
to help communicate important lifesaving information to the 
public. During the height of the storm, we had a 10-person team 
of engineers in central Pennsylvania to assist the evaluation 
of conditions of levees and floodwalls, to provide technical 
assistance and to support in flood fighting, and Congressman 
Marino, this was the Wilkes-Barre and the Forty Fort area where 
you saw the cracked levee, significant and, frankly, very 
dramatic evening for the local flood protection authority for 
our team that was supporting them. We fully staffed our dams to 
respond to any necessary actions and we had a staff of 
engineers monitoring weather and river stage conditions around 
the clock to make sure that decisions regarding storage and 
release of water from the reservoirs were both timely and 
prudent.
    At the same time, and in support of FEMA, with the Stafford 
Disaster Relief and Emergency Assistance Act authorities, we 
had 45 experts from various time frames providing assistance 
with debris, damage assessment, dam assessments, emergency 
temporary power, and temporary housing support. Again, that is 
part of the FEMA team under the National Response Plan.
    Rain events in the river--the rain events along the 57 
miles of Federally-built levees as well as higher water 
elevations throughout our systems of reservoirs created 
historic conditions but our projects prevented an estimated 
$4.1 billion in damages within the Susquehanna River Basin. Let 
me repeat that. The projects that we constructed in the Federal 
Government prevented an estimated $4.1 billion in damages 
within the basin. This included about $173 million in damages 
prevented by our reservoirs by holding water back during times 
of high water and $3.9 billion in damages prevented by our 
levees and floodwalls.
    In the future as we work with local and State partners to 
address flood risks, we aim to reduce the probability of 
flooding by incorporating structural as well as non-structural 
solutions. While levees and floodwalls represent the 
traditional structural built solution, we also need to strongly 
consider non-structural solutions such as flood warning 
systems, emergency evacuation plans, floodproofing of 
structures and, frankly, relocations and buyouts, getting 
people away from the water.
    So as new projects are being formulated, we focus on the 
most effective combination of all tools available to help lower 
risk.
    Sir, I am out of time, but thank you very much for this 
opportunity to appear before the committee and I look forward 
to your questions.
    [The statement of Colonel Anderson follows:]

            Prepared Statement of Colonel David E. Anderson
                           November 29, 2011

    Mr. Chairman and Members of the subcommittee, I am Colonel David 
Anderson, Commander of the Baltimore District, U.S. Army Corps of 
Engineers (Corps). Thank you for the opportunity to testify before you 
about our how our organization plans, responds to, and recovers from 
high-water events, and with specific regard to the recent Hurricane 
Irene and Tropical Storm Lee events.

                                OVERVIEW

    The Corps is a unique organization, with a diverse military and 
civil works mission. The Baltimore District is 1,200 employees strong 
and executes its Civil Works mission primarily in flood risk 
management, ecosystem restoration, and navigation throughout the 
Chesapeake Bay watershed, from its headwaters in New York through 
Pennsylvania to the shorelines of Maryland and Virginia and to the 
Atlantic coastline.
    The Corps owns or operates 692 dams that provide hydropower, water 
supply, and crucial flood damage reduction throughout the United 
States, including 17 dams in the Susquehanna River and Potomac River 
Basins, 11 of which are in the Commonwealth of Pennsylvania.
    The Corps is also responsible for executing an important regulatory 
program that helps protect tens of thousands of acres of aquatic 
resources per year, and we work with the Federal Emergency Management 
Agency (FEMA) to provide valuable engineering expertise during times of 
National emergencies.
    We are the Army's engineers, focusing our expertise on building 
training facilities, hospitals, barracks, and other assets across the 
Department of Defense that help improve the lives of our service 
members and increase our military's ability to protect and defend our 
Nation.
    Included in our diverse missions, and related to the topic here, is 
our role and responsibility in flood risk management and emergency 
response.
    Responsibility for flood risk management in the United States is a 
shared responsibility among multiple Federal, State, and local 
government agencies with a complex set of programs and authorities. The 
authority to determine how land is used in floodplains and to enforce 
flood-wise requirements is entirely the responsibility of State and 
local governments. Floodplain management choices made by State and 
local officials, in turn, impact the effectiveness of Federal programs 
to mitigate flood risk and the performance of Federal flood risk 
management infrastructure. Importantly, we must ensure the public is 
educated both as to the risks they face and actions they can take to 
reduce their risks.

                     AUGUST-SEPTEMBER 2011 FLOODING

    The Baltimore District, which has responsibility for the 
Susquehanna River Basin, exercised its full range of flood risk 
management programs in response to Hurricane Irene in August 2011 and 
Tropical Storm Lee in September 2011. These two events produced 
significant precipitation in the Susquehanna River Basin and caused 
flooding throughout the East Coast. First, Hurricane Irene passed 
through the Northeast Corridor, making landfall on August 26-28, 2011. 
Then, only a week and a half later, Tropical Storm Lee moved up from 
the Gulf of Mexico and stalled over the Northeast, creating moderate to 
major flooding along the Upper Susquehanna and mainstem Susquehanna 
Rivers. In some locations, the flood stage was exceeded by more than 15 
feet, with numerous river gauges exceeding previous records set mostly 
during Tropical Storm Agnes in June 1972 and during the storm of June 
2006.
    Rainfall totals ranged from 6-15 inches, mostly from Tropical Storm 
Lee, during the period of September 6-9, 2011. The heaviest rain fell 
over the mainstem Susquehanna and Upper Susquehanna River Basins, 
generally in a north-south band running from Binghamton, New York to 
Harrisburg, Pennsylvania. Some of these areas had already been affected 
by heavy rains associated with Hurricane Irene.

                 EMERGENCY MANAGEMENT AND PREPAREDNESS

    The Corps' emergency response authorities derive from the Stafford 
Act, the authority of 33 U.S.C. 701n (referred to as Pub. L. 84-99 or 
PL 84-99) and our regulatory statutes. The Corps also provides 
reimbursable emergency response and recovery support to the Federal 
Emergency Management Agency (FEMA) under the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act (Pub. L. 93-288, as 
amended), and in emergencies the Corps can expedite permitting through 
its own regulatory program.
    Under Pub. L. 84-99, the Corps is authorized to undertake 
activities that include disaster preparedness, advance measures, 
emergency operations, and rehabilitation of eligible flood damage 
reduction projects damaged by flood or rehabilitation of Federally 
authorized shore protection projects.
    Disaster preparedness consists of functions required to ensure that 
the Corps is ready to respond to a broad range of disasters and 
emergencies. Corps flood preparedness includes coordination, planning, 
training, and conducting response exercises with key local, State, and 
Tribal stakeholders/partners. Establishing and maintaining good working 
relationships benefits both the Corps and its partner and improves 
communications during a flood response. Also, confirming points of 
contact for both State and local partners and the Corps on a periodic 
basis allows for an exchange of information and updating on key areas 
of interest. Being aware of State and local authorities, requirements, 
capabilities, and expectations helps the Corps determine how it can 
best supplement State and local needs. Conversely, educating State and 
local entities about Corps authorities, requirements, and expectations 
eliminates potential gaps and overlaps. These activities ensure Corps 
personnel assigned emergency assistance responsibilities are trained 
and equipped to accomplish their missions.
    The Rehabilitation and Inspection Program (RIP) provides for the 
inspection and rehabilitation of Federal and non-Federal flood risk 
management projects damaged or destroyed by floods, and the 
rehabilitation of Federally authorized and constructed hurricane and 
storm damage reduction projects damaged or destroyed by wind, wave, or 
water action other than that of an ordinary nature. A project in the 
program remains eligible for acceptance into the program for future 
rehabilitation as long as it is properly operated and maintained as 
determined by a Corps inspection, which is conducted annually.
    In accordance with the Department of Homeland Security's National 
Response Framework, the Corps is the executing agency under Emergency 
Support Function No. 3 (Public Works and Engineering), on behalf of the 
Department of Defense. Typical mission assignments include Emergency 
Temporary Power, Debris Removal, Commodities/Water, Temporary Housing/
Roofing, Infrastructure Assessments, Urban Search and Rescue, among 
others. As a result of Hurricane Irene and Tropical Storm Lee, the 
Baltimore District supported FEMA by deploying 45 experts for various 
time frames for assistance.
    The Corps responded to the high-water event by immediately 
dispatching engineers, construction experts, and public affairs 
officials to area levees and dams, monitoring water levels, activating 
emergency operations procedures in preparation for potential flooding, 
and helping to communicate important life-saving information to the 
public. For example, during the height of the storm, we deployed a 10-
person team of engineers to central Pennsylvania to assist in 
evaluating the condition of levees and floodwalls, providing technical 
assistance, and supporting the flood fight.
    One example of the measures taken occurred in Wilkes-Barre, where 
the river gauge recorded 42.66 feet of water at its peak, a full 1.75 
feet higher than Tropical Storm Agnes in 1972, which reached 40.91 
feet. The Wyoming Valley Levee System, originally constructed in 1936, 
consists of three levee systems at Plymouth, Kingston-Exeter, and 
Wilkes-Barre-Hanover Township. The levees extend for approximately 15 
miles with 13 storm water pump stations. Tropical Storm Lee tested this 
system with tremendous flows and water pressure placed on the 
structure.
    On-site patrols identified two locations in Forty-Fort that 
required interim solutions in order to reduce the risk of damage to the 
levee system. The first incident occurred late in the day Thursday, 
September 8, where rising waters caused cracks to develop on the 
system's floodwall. In order to stabilize the wall and maintain flood 
protection, we provided on-site expertise and made recommendations to 
the local flood authority to add ballast--or weight--to the land side 
of the wall. By building up additional material on the land side, a 
flood wall is stabilized against the pressure of the rising water. A 
local contractor provided the necessary equipment, staff, and 
truckloads of material to perform the repairs, and they, along with the 
flood authority and the Corps, worked throughout the night and finished 
the repairs around 2 a.m.
    A few hours after repairing the floodwall, the Corps was called to 
a second location in Forty-Fort that needed repairs. A large boil, an 
area where differential pressure allows seepage and the possible 
transport of fine grained material, measuring 50 feet in diameter was 
occurring on the landside toe of the levee. Boils are typical during a 
high-water event, and if not properly monitored, they can destabilize 
the levee. Our engineers again recommended covering the area with a 
specialized material and loading it with additional fill to prevent 
further degradation of the levee. By adding additional fill, weight is 
added to the land side of the levee, increasing its stability. The 
repair was completed and further damage was avoided.
    As described in Wilkes-Barre, teams of engineers perform 24-hour 
levee patrols at the Federal projects, walking the levees and examining 
the flood walls and pump stations to ensure proper performance during 
significant flow events. Typically, our engineers look for cracking, 
tilting, and soft foundation conditions around the floodwall. They also 
look for boils and properly working closure structures, drainage 
structures, and pump stations. They work in partnership with State and 
local officials to provide technical assistance and support for levees 
that are not operated by the Corps. This intensive effort is conducted 
so that issues can be identified and resolved early, reducing the risk 
of a more serious problem to structures or people.
    Although flood damages in the entire Northeast region were 
devastating, in many areas where Corps projects exist, their operation 
by the Corps effectively reduced an additional estimated $6 billion of 
damages to the residents in the Northeast.

          PUB. L. 84-99--FLOOD CONTROL AND COASTAL EMERGENCIES

    Following a significant event, the Corps has the authority to 
rehabilitate flood risk management projects as authorized by Pub. L. 
84-99, which is funded by the Flood Control and Coastal Emergencies 
(FCCE) Appropriation. It includes responsibility for disaster 
preparedness, emergency operations, rehabilitation of flood damage 
reduction projects, provision of emergency water, advance measures when 
the threat of flooding is imminent, and participation in FEMA-led 
hazard mitigation teams. The Corps has the ability to execute emergency 
response operations and specific activities under this authority; a 
Presidential declaration is not required. Following an event, the Corps 
releases a public notice to Federal and non-Federal sponsors, who can 
submit a formal/written request for assistance.
    Rehabilitation is limited to those projects that have been 
previously and regularly inspected (called ``active'' projects) and 
determined to be in acceptable condition. In most cases, these projects 
are maintained by local jurisdictions. In accordance with Corps' 
regulations, assistance for ``active'' projects is limited to repair to 
pre-disaster condition and level of protection, must be beyond normal 
operation and maintenance, must have construction repair costs greater 
than $15,000, and must have a benefit-to-cost ratio of 1.0 or greater. 
Channel restoration, within the project limits, to pre-flood hydraulic 
capacity may be eligible when the channel capacity has been decreased 
to 75 percent or less of pre-event capacity.
    Post-storm, the Corps deployed teams to the affected areas to 
conduct initial assessments of damages to our flood risk management 
projects. The results from these assessments will be combined with a 
sponsors' written request for assistance, and projects will be 
considered for eligibility under the Pub. L. 84-99 Program. Many 
projects sustained varying levels of damage, some more critical than 
others.
    Funding for repair of eligible damages is 100% Federal cost for 
Federal projects and 80% Federal, 20 percent local sponsor for non-
Federal projects. Funding is provided through the Corps' FCCE 
appropriations account.
    Following Hurricane Irene and Tropical Storm Lee, a Public Notice 
was issued on September 16, 2011 to Federal and non-Federal sponsors 
whereby sponsors could submit a formal/written request for assistance 
per the previously described criteria. The Public Notice was posted on 
the Baltimore District website and the 30-day window ended October 16, 
2011.
    Due to the damages caused by the record flooding in 2011, the Corps 
is using a prioritization process to differentiate the level of need 
and to facilitate prioritized funding requirements. These are based 
primarily on those projects that pose the greatest risk to life safety 
and other factors.
    Requirements for funding as a result of September 2011 flooding are 
being evaluated by Corps Headquarters, along with requirements for 
damages resulting from other major natural disasters which occurred in 
2011, namely flooding in the Mississippi River and Missouri River 
Basins.

                         FLOOD RISK MANAGEMENT

    The Corps shares with FEMA, both the expertise and mandate under 
its respective authorities and missions to address the Nation's 
vulnerabilities to flood-related disasters and damages. Since passage 
of the Flood Control Act of 1936 established a Federal role in flood 
management, the Corps authorized responsibilities have expanded to 
include developing structural and nonstructural solutions to managing 
flood risks, inspecting the condition of existing flood management 
infrastructure, providing technical and planning support to States and 
communities, conducting advance emergency measures to alleviate 
impending flooding, providing emergency flood fight support, and 
rehabilitating levees and other flood management infrastructure damaged 
by flooding. In May 2006, the Corps established the National Flood Risk 
Management Program to take the first step of bringing together other 
Federal agencies, State and local governments and agencies, and the 
private sector to develop and implement a unified National flood risk 
management strategy that eliminates conflicts between different flood 
risk management programs and takes advantage of all opportunities for 
collaboration. In recent years, the Corps has placed an increasing 
emphasis on nonstructural approaches to flood risk management. 
Nonstructural alternatives focus on efforts and measures to reduce 
flood damages in an area by addressing the development in the 
floodplain, such as: Floodplain zoning, participating in FEMA's 
National Flood Insurance Program (NFIP), developing and implementing 
flood warning systems (coordinated with the National Oceanic and 
Atmospheric Administration's flood warning program) and emergency 
evacuation plans, and flood-proofing individual structures as well as 
removing structures from the extreme flood hazard areas. Other 
measures, such as setback levees, are also being utilized by the Corps, 
as they typically offer greater natural use of the floodplain while 
still providing structural protection from floodwaters if completely 
non-structural alternatives are not viable.
    Traditionally, Corps efforts to address flooding hazards have been 
through civil works projects to reduce the probability of flooding 
through the construction of levees or other flood management 
infrastructure. As projects are formulated, we now focus on the most 
effective combination of tools available that citizens may use to lower 
their flood risk, not only reducing the probability of flooding, but 
also reducing the consequences should a flood occur. Furthermore, the 
decision on which tools to implement involves all stakeholders.

                          LEVEE SAFETY PROGRAM

    The Corps has had a long history of planning, designing, 
constructing, and inspecting a multitude of levee systems and 
conducting flood fighting throughout the Nation. The Corps established 
its Levee Safety Program in 2007 with the mission to assess the 
integrity and viability of levees and recommend courses of action to 
make sure that levee systems do not present unacceptable risks to the 
public, property, and environment. The Levee Safety Program activities 
focus on public safety as its top priority. Some specific Levee Safety 
Program activities involve:
  <bullet> Populating and maintaining the National Levee Database to 
        serve as a living, dynamic record of information relative to 
        the status and safety of the Nation's levee systems. The 
        National Levee Database was opened to public access on October 
        27, 2011 and can be found at (http://nld.usace.army.mil).
  <bullet> Applying a levee screening tool that combines inspection 
        data with a preliminary engineering assessment and maximizing 
        the use of existing information (inspection rates and 
        consequence data) and local knowledge of levee performance. 
        Results will be used to rank levees based on relative risk to 
        help inform decisions about future actions to improve public 
        safety associated with the levees.
  <bullet> Incorporating changes and improvements associated with the 
        state-of-the-art professional engineering practice into levee 
        safety policy and procedures.
  <bullet> Conducting both routine (every year) and periodic (every 5 
        years) inspections for the levees in the Corps' Levee Safety 
        Program--
    <bullet> To ensure that the levee system will perform as expected.
    <bullet> To identify deficiencies or areas which need monitoring or 
            immediate repair.
    <bullet> To assess the integrity of the levee system in order to 
            identify any changes over time.
    <bullet> To collect information in order to be able to make 
            informed decisions about future actions.
    <bullet> To determine eligibility for Federal rehabilitation 
            funding for the levee in accordance with Pub. L. 84-99.
    <bullet> To determine if the levee is being properly operated and 
            maintained.
    Levees within the Corps Levee Safety Program include those which 
are: (1) Federally authorized and Corps operated and maintained; (2) 
Corps constructed and locally operated and maintained; and (3) locally 
constructed and locally maintained, but have been accepted in to the 
Corps Rehabilitation and Inspection Program (RIP). Levees within the 
Corps program consist of approximately 14,600 miles or 2,000 levee 
systems. The Corps will communicate the condition and associated risk 
of these levee systems and recommend actions that may include immediate 
repair of certain deficiencies and/or interim risk reduction measures. 
The Corps will assist the local sponsor and other stakeholders to 
develop the best path forward. Levees do not and cannot eliminate risk 
and are not the only available flood risk reduction tool.

                 FLOODPLAIN MANAGEMENT SERVICES PROGRAM

    Under the Floodplain Management Services Program, the Corps can 
provide technical assistance with flood-related issues. Technical 
assistance takes the form of hydrologic and hydraulic modeling, 
inundation mapping, geographic information system analyses, assessing 
structural and non-structural alternatives (including floodproofing and 
stormwater management measures), determining potential benefits and 
costs, assessing flood hazards and mitigation, comprehensive planning 
and risk management, and other related analyses and assessments. This 
program can provide concept plans for alternative solutions to flooding 
problems but cannot result in design or construction of projects.

                      STUDY--DESIGN--CONSTRUCTION

    The Corps also has a range of study, design, and construction 
authorities for flood risk management. There are the ``large'' project 
authorities such as that used for the Wyoming Valley and Lackawanna 
River Flood Risk Management projects and ``small'' project authorities, 
for projects generally less than $7 million total. The traditional and 
most common way for the Corps to help a community solve a water 
resource problem is through individually authorized studies and 
projects. The Corps jointly conducts a cost-shared study with a non-
Federal sponsor and, if shown by the study to be feasible, constructs 
the project. This approach requires that Congress provide the Corps 
with authority and funds to first accomplish a reconnaissance and 
feasibility study and, then, to design and construct the project. Local 
sponsors share the study and construction costs with the Corps and 
usually pay for all operation and maintenance costs. This approach may 
be used to address any one of a variety of water resource problems, 
including navigation, flood risk management, and ecosystem restoration.

               PARTNERING WITH FEMA ON FLOODPLAIN MAPPING

    Both the Corps and FEMA have a long history of partnering on 
floodplain mapping as part of the NFIP. Over the past 30 years, the 
Corps has completed more than 3,000 studies for FEMA related to 
identifying the flood potential of various areas across the country. 
These studies involved activities such as flood plain delineations and 
detailed flood insurance studies. In August 2005, both agencies signed 
an agreement that further streamlined the process for the Corps to 
provide flood plain mapping and other related services to FEMA.
    The Corps cooperates with FEMA and other Federal, State, and local 
agencies through numerous avenues in support of FEMA's floodplain 
mapping efforts. Currently, the Corps and FEMA partnership is the 
strongest it has ever been. The Corps and FEMA will continue this 
partnership as FEMA transitions into their Risk Mapping, Analysis, and 
Planning (RiskMAP) program.

              SILVER JACKETS PROGRAM--AGENCY COLLABORATION

    The Silver Jackets program is an interagency team with members that 
have some aspect of flood risk management/reduction as part of their 
mission. Traditionally, different agencies wear different colored 
jackets when responding to emergencies. The name Silver Jackets is used 
to underscore the common mission of the diverse agencies involved.
    Silver Jackets includes more than 12 active Federal, State, 
regional, and professional agencies and organizations. Their focus over 
the past year has been on flood risk management outreach and learning 
others' programs. The team developed an interagency flood risk 
management program guide that lists all Federal, State, and regional 
flood-related programs. Most recently, the team met to discuss the 
recent flooding and the actions each agency took during and after the 
event. Flood-related issues and how our programs can be used continue 
to be discussed among the various agencies.
    The Pennsylvania Silver Jackets team recently submitted a proposal 
for a flood inundation mapping project for the City of Harrisburg and 
several adjacent communities. The proposed project leverages resources 
from the Corps, Susquehanna River Basin Commission, U.S. Geologic 
Survey, National Weather Service, Pennsylvania Emergency Management 
Agency, Federal Emergency Management Agency, and The Harrisburg 
Authority. The project will provide a graphical extension to river 
forecasts issued by the National Weather Service in partnership with 
the Susquehanna River Flood Forecast and Warning System. The Harrisburg 
pilot project was selected to move forward.

                               CONCLUSION

    Thank you for the opportunity to provide a comprehensive review of 
our role and programs for flood risk management, and an understanding 
of Corps programs for flood risk management. The Corps uses its 
authorities, programs, and role in flood risk management to the optimum 
and maximum extent in order to reduce the risk to life, structures, and 
property. We are all responsible for our safety.
    This concludes my testimony and I would be happy to answer any 
questions you or other Members of the subcommittee may have.

    Mr. Bilirakis. Thank you, Colonel. I appreciate it very 
much.
    Now Mr. Cannon, you are recognized for 5 minutes.

STATEMENT OF GLENN M. CANNON, DIRECTOR, PENNSYLVANIA EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Cannon. Chairman Bilirakis, Congressman Marino, I am 
Glenn Cannon, Director and Homeland Security Advisor for the 
Pennsylvania Emergency Management Agency. I am pleased to have 
this opportunity to appear before you to discuss the response 
to Hurricane Irene and Tropical Storm Lee and the lessons 
learned from those storms. I very much appreciate the 
committee's concern that at the Federal, State, and local level 
we continue to focus on ensuring effective preparedness and 
response to disasters.
    As you mentioned earlier, sir, after Hurricane Katrina, I 
was hired as the assistant administrator in the Department of 
Homeland Security at FEMA. I was brought in to help fix the 
problems that happened during FEMA's response to Hurricane 
Katrina. At FEMA, I was in charge of disaster operations for 56 
States and territories and was responsible for, among other 
things, the development and execution of interagency plans and 
procedures in response to Presidential disasters. I believe the 
lessons we learned from that disaster made us better prepared 
to respond to Hurricane Irene and Tropical Storm Lee.
    In late August, PEMA, other State agencies, county and 
local emergency management agencies, and FEMA began preparing 
for Hurricane Irene. Since that time, we responded to Irene. We 
started the recovery process from Irene. We prepared for 
Tropical Storm Lee. We responded to Tropical Storm Lee. We 
started the recovery process from Lee and are now back in the 
recovery phase for both Irene and Lee. It has been a very 
hectic and stressful period of time with long hours for those 
at the Federal, State, county, and local level who have been 
involved with both Irene and Lee. Our State Emergency 
Operations Center was at elevated levels just about every day 
from August 25 until the last week of September. For several 
days during Tropical Storm Lee, our EOC was at level 1 the 
first time since 9/11/01.
    At the State level, Governor Corbett took a hands-on 
approach regarding the disasters and committed all necessary 
State resources. Governor Corbett, his executive staff, Lt. 
Governor Cawley and our Cabinet secretaries were camped out at 
PEMA during these storms and actively involved in the 
operations. I think we may have set a record for Cabinet 
meetings held in an agency during a 1-week period of time.
    The magnitude of Hurricane Irene and Tropical Storm Lee was 
immense. With regards to disaster destruction, Hurricane Agnes 
in 1972 has been the benchmark in Pennsylvania. With Tropical 
Storm Lee, there are areas with flood levels that exceeded 
Agnes. Other areas that had flood records and across the State, 
the total amount of devastation was worse than any storm since 
Agnes.
    Here are many of the key statistics that show the magnitude 
of our storms. For Hurricane Irene, there were 11 counties 
declared for individual assistance, 14 declared for public, and 
13 declared for emergency protective measures. For Tropical 
Storm Lee, there were 28 counties declared for individual 
assistance, 30 counties declared for public assistance, and 44 
counties were declared for emergency protective measures. We 
have 67 counties in Pennsylvania; 44 were declared.
    To date, there have been over 92,000 people registered for 
individual assistance and over $129 million in individual 
assistance has been awarded. The preliminary damage assessments 
for public assistance have totaled over $200 million. The 
actual PA damage number will likely double or triple that 
amount. There have been over 1,800 Small Business 
Administration loans approved for a total of over $73 million. 
We have had over 26,000 visits to our 23 Disaster Recovery 
Centers that MaryAnn mentioned.
    Immediately after the storms hit, in coordination with 
FEMA, over 576,000 bottles of water and over 147,000 emergency 
meals were delivered to communities that needed these essential 
supplies.
    With the widespread destructive force of these storms 
hitting not only Pennsylvania but the entire East Coast, it was 
a major challenge for all in the emergency management 
community. Now it is an even bigger challenge recovering from 
the storms. Here are some of my thoughts on the lessons learned 
and some of the things upon which we should try to improve.
    First and foremost, we need to keep reminding our citizens 
about preparedness in our Ready PA campaign. You probably have 
seen Governor Tom Corbett on television or heard him on the 
radio doing highly important public service announcements about 
Ready PA. The purpose of Ready PA is to motivate Pennsylvanians 
to take action to prepare for a disaster. It encourages all 
Pennsylvanians to be informed, be prepared and be involved. The 
on-going purpose of Ready PA is to make our citizens fully 
aware of this reality and have them fully prepared if such a 
situation occurs.
    With regard to power outages and the aftermath in the 
storms, we continue to look at the problems with power and the 
extent of time that they are out. We are working with the 
Public Utility Commission looking at doing tabletop exercises 
to try to help them assess how to better prepare for and 
respond to these situations.
    We also learned, and we have had some of the discussion 
about the huge benefit of flood mitigation projects. We believe 
that probably as a result of these storms we will receive 
requests for 400 to 500 home buyouts from the storms. In 
addition, the flood levee system in Luzerne County that wasn't 
there during Hurricane Agnes probably saved lives and, as we 
have heard, billions of dollars of property damage. Nation-
wide, FEMA estimates that for every dollar spent on mitigation, 
$4 are saved.
    I would like to thank everybody that has been involved in 
the preparation for and the response to and recovery from these 
storms, this tremendous effort and work that has been done to 
protect and help the citizens and communities that have been so 
adversely affected.
    One final point, and I think it is critical to where we 
are. The success we had in the response to Hurricane Irene and 
Tropical Storm Lee was in large part due to the prior work done 
in enhancing our emergency response capabilities. The events 
related to Hurricanes Katrina and Rita highlighted the critical 
importance of a comprehensive, all-hazard planning and training 
effort across our country. In particular, the Emergency 
Management Performance Grant program and the Homeland Security 
Grant program have played key roles in providing the resources 
needed to strengthen our response capabilities.
    In light of the current budget crisis, I fully appreciate 
the difficult situation faced by Members of Congress in making 
budget cuts. As you know, over the past year, cuts have been 
made to the Emergency Management Grant program and to the 
Homeland Security Grant program. I am very concerned that 
further cuts will be made to these and other programs which 
would jeopardize our ability to respond effectively to future 
disasters. Therefore, I strongly urge you to fight for the 
resources our emergency management community, including our 
first responders, needs to sustain our response capability and 
protect our citizens.
    Thank you very much.
    [The statement of Mr. Cannon follows:]

                 Prepared Statement of Glenn M. Cannon
                           November 29, 2011

    Chairman Bilirakis, Ranking Member Richardson, Congressman Marino 
and Members of the committee, I am Glenn Cannon, Director and Homeland 
Security Advisor for the Pennsylvania Emergency Management Agency 
(PEMA). I am pleased to have the opportunity to appear before you to 
discuss the response to the Hurricane Irene and Tropical Storm Lee and 
lessons learned from those storms.
    I very much appreciate this committee's concern that--at the 
Federal, State, and local level--we continue to focus on ensuring 
effective preparedness and response to disasters. As some of you may 
know, after Hurricane Katrina, I was hired as an assistant 
administrator in the Department of Homeland Security/Federal Emergency 
Management Agency (FEMA). I was brought in to help fix the problems 
that happened during FEMA's response to that disaster. At FEMA, I was 
in charge of Disaster Operations for 56 States and territories and was 
responsible for, among other things, the development and execution of 
interagency plans and procedures in response to Presidential disaster 
and emergency declarations. I believe the lessons we learned from that 
disaster made us better prepared to respond to Hurricane Irene and 
Tropical Storm Lee.
    In late August, PEMA, other State agencies, county and local 
emergency management agencies, and FEMA began preparing for Hurricane 
Irene. Since that time, we responded to Irene, started the recovery 
process from Irene, prepared for Tropical Storm Lee, responded to Lee, 
started the recovery process from Lee, and now are back in the recovery 
phase for both Irene and Lee. It has been a very hectic and stressful 
period of time--with long hours--for those at the Federal, State, 
county, and local level who have been involved with Irene and Lee. The 
State Emergency Operations Center (SEOC) was at elevated levels just 
about every day from August 25 until the last week of September. For 
several days, the SEOC was at Level 1 for the first time since 
September 11, 2001.
    At the State level, Governor Corbett took a hands-on approach 
regarding the disasters and committed all necessary State resources. 
Governor Corbett, his executive staff, Lieutenant Governor Cawley, and 
cabinet secretaries were camped out at PEMA during these storms and 
actively involved in the operations. I think we may have set a record 
for cabinet meetings held at an agency during a 1-week time period.
    The magnitude of Hurricane Irene and Tropical Storm Lee was 
immense. With regards to disaster destruction, Hurricane Agnes in 1972 
has been the benchmark in Pennsylvania. With Tropical Storm Lee, there 
are areas with flood levels that exceeded Agnes, other areas that had 
record flood levels, and across the State the total amount of 
devastation was worse than any storm since Agnes. Here are many of the 
key statistics that show the magnitude of the storms:
  <bullet> For Hurricane Irene, there were 11 counties declared for 
        Individual Assistance, 14 counties declared for Public 
        Assistance, and 13 counties declared for Emergency Protective 
        Measures.
  <bullet> For Tropical Storm Lee, there were 28 counties declared for 
        Individual Assistance, 30 counties declared for Public 
        Assistance, and 44 counties declared for Emergency Protective 
        Measures.
  <bullet> To date, there have been over 92,000 people register for 
        Individual Assistance (IA) and over $128 million in IA has been 
        awarded.
  <bullet> The Preliminary Damage Assessments for Public Assistance 
        (PA) totaled over $180 million and the actual PA damage number 
        likely will be double or triple that amount. Currently, there 
        are about 1,650 applicants for Public Assistance.
  <bullet> There have been over 1,800 Small Business Administration 
        (SBA) loans approved for a total of over $68 million.
  <bullet> We have had over 26,000 visits to our 23 Disaster Recovery 
        Centers (DRCs).
  <bullet> Immediately after the storms hit, in coordination with FEMA, 
        over 576,000 bottles of water and over 147,000 emergency meals 
        were delivered to communities that needed these essential 
        supplies.
    With the widespread destructive force of these storms hitting not 
only Pennsylvania but the entire East Coast, it was a major challenge 
for all in the emergency management community. Now it's an even bigger 
challenge recovering from the storms. Here are some of my thoughts on 
the lessons learned and some of the things upon which we should try to 
improve.
    First and foremost, we need to keep reminding our citizens about 
preparedness and our ``ReadyPA'' campaign. You probably have seen 
Governor Tom Corbett on television or heard him on the radio doing 
highly important Public Service Announcements about ReadyPA. The 
purpose of ReadyPA is to motivate Pennsylvanians to take action to 
prepare for a disaster. ReadyPA encourages all Pennsylvanians to: Be 
Informed, Be Prepared, and Be Involved. Nation-wide experience has 
shown that, in major emergencies or disasters, people need to be 
prepared to make it on their own for a period of time. Local officials 
and emergency relief workers will respond after a disaster, but they 
may not be able to reach everyone right away. As we saw with Hurricane 
Irene and Tropical Storm Lee, it may take significant time after an 
emergency for things such as power or water to be fully restored. That 
is why it's critical for everyone to be prepared to survive on his or 
her own for at least 72 hours in the event of an emergency. The on-
going purpose of ReadyPA is to make our citizens fully aware of this 
reality and have them fully prepared if such a situation occurs. The 
ReadyPA website can be found at: www.ReadyPA.org.
    With regards to power outages, in the aftermath of the storms we 
had citizens who were without power for a week to 10 days. We also had 
people who experienced power outages for over a week from an early 
season snow storm that hit the eastern part of the State several weeks 
ago. PEMA's role is very limited regarding power outage matters and I 
appreciate the challenges the utilities face in restoring power in 
these situations. However, long power outage issues need to be 
reviewed. It is my understanding that the Public Utility Commission is 
considering doing a tabletop exercise with the utilities to try and 
assess what can be done to better prepare for and respond to these 
situations. I think such a tabletop exercise would be very beneficial 
to see how things can be improved.
    We also learned a lesson about the huge benefits--on the human 
safety side and the property damage side--of flood mitigation projects. 
Since 1996, PEMA has used Federal mitigation funds to acquire about 
1,400 homes which removed an estimated 3,500 people from dangerous 
flood areas. Acquisition is considered the ``best'' mitigation practice 
because it eliminates the hazard of flooding in a risk area: No 
homes=no losses. Based on the amount of homes damaged in Hurricane 
Irene and Tropical Storm Lee, we anticipate that PEMA will receive 
requests for 400-500 home buyouts from the storms. In addition, the 
flood levee system in Luzerne County--that wasn't there during 
Hurricane Agnes--probably saved lives and over a billion dollars in 
property damage. Nation-wide, FEMA estimates that for every $1 spent on 
mitigation, $4 are saved. I highly encourage this committee to make 
funding of Federal mitigation projects a priority.
    On the recovery front, there are several important matters to note. 
At the beginning of the recovery, FEMA did not think it could support 
the large number of DRCs that we needed opened in the State and get 
them up and running as quickly as we needed. We worked jointly with 
FEMA and moved aggressively on the matter. The result--we had DRCs 
opened in record time and in record numbers. For future disasters, it 
should be a reminder that--when it comes to helping our citizens--where 
there's a will, there's a way to get things done. On the housing front, 
getting citizens into Temporary Housing Units (THUs) has been the 
biggest challenge during the recovery. I know that it is a very complex 
matter at the Federal and local level and I hope that progress will 
continue to be made to get all people in THUs as soon as possible. On 
the business front, SBA's 4% interest rate continues to be a concern 
for many small businesses. I would encourage this committee to see 
whether SBA will lower the interest rate in light of the devastation 
from these storms. The viability of the affected businesses is crucial 
to the future recovery of our flood-ravaged communities.
    I thank everyone involved--in the preparation for, the response to, 
and the recovery from these storms--for the tremendous effort and work 
that has been done to protect and help the citizens and communities 
that have been so adversely affected. Our first responders and rescue 
teams were heroes who went beyond the call of duty to save lives. There 
were neighbors helping neighbors and strangers helping strangers. The 
cooperation and coordination among State, county, local, and Federal 
entities truly has been remarkable. On the political front, the 
assistance given on these disasters has been so terrific and so 
nonpartisan. When I was in Duryea, Luzerne County, FEMA Administrator 
Craig Fugate was there to see the devastation first hand. He told me 
``Glenn, whatever you need, call me and you'll have it.'' When I was in 
Noxen and Forkston, Wyoming County, Congressman Marino told me he would 
call the Chairman of this committee, Peter King, to absolutely make 
certain we had everything we needed to help our citizens and 
communities. Simply put--the worst of Mother Nature was met with the 
best of human nature.
    The success we had in the response to Hurricane Irene and Tropical 
Storm Lee was, in large part, due to the prior work done in enhancing 
our emergency response capabilities. The events related to Hurricane 
Katrina and Rita highlighted the critical importance of comprehensive 
all-hazard planning and training. In particular, the Emergency 
Management Performance Grant (EMPG) and the Homeland Security Grant 
Program (HSGP) have played key roles in providing the resources needed 
to strengthen our State response capabilities. In light of the current 
budget crisis, I fully appreciate the difficult situation faced by 
Members of Congress in making budget cuts. As you know, over the past 
year cuts have been made to EMGP and HSGP. I am very concerned that 
further cuts will be made to these and other programs which will 
jeopardize our ability to respond effectively to future disasters. 
Therefore, I strongly urge you to fight for the resources our emergency 
management community, including our first responders, need to sustain 
our response capabilities and protect our citizens.
    On behalf of Governor Corbett and the 12 million Pennsylvanians we 
serve, I again want to thank you the Members of this committee and the 
entire United States Congress for your continued support of PEMA and 
our partners in public safety across the State. I would be happy to 
answer any questions you may have.

    Mr. Bilirakis. I appreciate it very much.
    Now we will ask Ms. Wenner to testify for 5 minutes.

 STATEMENT OF MARITA C. WENNER, VOLUNTEER CHAIR, PENNSYLVANIA 
          STATE DISASTER COMMITTEE, AMERICAN RED CROSS

    Ms. Wenner. Good morning, Mr. Chairman, Members and staff 
of the subcommittee. I am honored to appear here today on 
behalf of the American Red Cross. My name is Marita Wenner, and 
I am a resident of this community and I serve as the volunteer 
chair of the Pennsylvania State Disaster Committee for the 
American Red Cross.
    I started my Red Cross career responding to single-family 
fires in Wayne and Pike counties, helping my neighbors recover 
from devastation of losing all of their belongings, having 
nowhere to go, and not knowing what to do next. I am one of 
thousands of Red Cross volunteers who respond to disasters 
across the country when the need arises.
    Over the past 20 years, I have learned that whether it is a 
house fire or a catastrophic disaster event, people have the 
same concerns and needs. They need information on where to go 
for help, how to begin their recovery, and most of all, they 
need someone to listen to their story with a caring heart. This 
is a small part of what the American Red Cross does in times of 
disaster, and I am fortunate to be part of this outstanding 
organization.
    Today's hearing's topic is of vital interest to the Red 
Cross and particularly important to me and my colleagues 
serving both at the National level and here in Pennsylvania.
    This has been a historic year for disaster response. 
Hurricane Irene and Tropical Storm Lee caused devastating 
flooding and wind damage in communities from North Carolina to 
New England affecting millions of residents. These storms 
flooded roads, damaged and destroyed homes, caused power 
outages, and prompted the evacuation of hundreds of thousands 
of families. In response to the threat of Hurricane Irene, the 
Red Cross mobilized a massive response. Thousands of 
prepackaged meals and over 240 emergency response vehicles were 
deployed across the East Coast. As Irene made landfall, more 
than 27,000 people found safe haven in approximately 500 
shelters. After Tropical Storm Lee hit, some residents returned 
to find their homes with damage beyond repair. Red Cross 
shelters remained open for several weeks in New York, 
Pennsylvania, Virginia, and New Jersey.
    I was dispatched along with many other volunteers prior to 
landfall of Hurricane Irene to the New York City chapter where 
I worked directing the preparedness activities anticipating 
what might be one of the worst natural disasters the city and 
State had ever encountered. Post-landfall, the valuable lessons 
that we have learned from past catastrophic hurricanes helped 
us mount an integrated and collaborative response with our 
government and non-government partners across the northeast 
United States. After 2 weeks in New York, I shifted my focus to 
Pennsylvania. With my experience of prior flooding events in 
Pennsylvania, I understood the enormous disaster implications 
of the predicated amount of rain that was falling in the area.
    Over the years, the Pennsylvania Red Cross has made great 
progress using our resources both material and human to our 
best advantage. We have developed regional systems to respond 
quickly and assess the resources we need to help our neighbors. 
This disaster would test our preparedness and become an 
unprecedented Pennsylvania response.
    Our response to Hurricane Irene and Tropical Storm Lee was 
immediate and comprehensive. We were able to rapidly move 
people and supplies from unaffected areas of the State such as 
Erie and Pittsburgh to affected central and northeast areas 
such as Pine Grove, Bloomsburg, Wilkes-Barre, Sayre, and 
Tunkhannock. As disaster needs increased and evolved, we relied 
on our assets from our National system to support our State-
wide response. Shelters were open across the area in 
anticipation of need to provide food, a safe place to sleep, 
mental health support, and access to some basic first aid and 
health care. Mobile feeding was established as soon as the 
weather permitted and was safe to do so. Red Cross trucks drove 
through affected neighborhoods delivering meals, snacks, and 
beverages to people returning to and cleaning up their damaged 
homes.
    Within days, we secured donated warehouse space at the 
Humboldt Industrial Park in Hazleton. The Red Cross opened a 
combination operation headquarters, mobile feeding kitchen, 
staff center, and storage facilities for our bulk supplies. We 
distributed truckloads of supplies like clean-up kits, rakes, 
shovels, garbage bags, disinfectant, gloves, masks, and 
personal care items. We engauged partner agencies such as the 
Boy Scouts and our corporate partners, who worked at our 
warehouse assembling and distributing hundreds of coolers 
packed with shelf-stable food, recovery supplies, and 
information. From this site in Hazleton, we were able to serve 
the affected populations from Susquehanna and Bradford counties 
to the affected areas south of Harrisburg and across the 
central part of the State.
    Over the length of these storms, the Red Cross in 
Pennsylvania provided a safe place to stay for over 8,000 
people in 100 shelters and served over 400,000 meals and 
snacks. Our response efforts were given by volunteers, many of 
whom came from across the country. In total, the Red Cross had 
1,870 workers on the ground, 1,734 of which were volunteers. We 
worked closely with our colleagues in the nonprofit, 
charitable, and faith-based communities along with our Federal, 
State, and local officials to expand our reach.
    After reviewing our Red Cross response in Pennsylvania, we 
will focus on the following. We need to continuously recruit, 
develop, and train local volunteers. We must continue to 
provide preparedness information ahead of events. When families 
are prepared, lives are saved and communities are more 
resilient.
    Consistent, on-going State-wide planning and collaboration 
is critical to a successful response. We need to focus on 
transitioning shelter residents to longer-term housing 
solutions. The faster that people can transition to permanent 
housing, the sooner that families including the vulnerable 
populations such as children, the elderly, and those with 
disabilities can return to normal activities and move towards 
recovery.
    Partnering remains critical to a successful response as no 
one agency can meets the needs of the community in a major 
event. Government, NGOs, the faith community, advocacy groups, 
the private sector, and individual citizens each play a 
critical role in response. We must continue to build and 
strengthen these partnerships at all levels.
    Thank you once again for the opportunity to provide 
testimony. The Red Cross is committed to be there ready for 
whatever disaster may strike. Hurricane Irene and Tropical 
Storm Lee were storms that tested our communities, and I am 
pleased that the American Red Cross and our volunteers and 
partners could play a role in the successful response.
    I am happy to address any questions you may have.
    [The statement of Ms. Wenner follows:]

                 Prepared Statement of Marita C. Wenner
                           November 29, 2011

    Good morning Mr. Chairman, Members and staff of the subcommittee. I 
am honored to appear today on behalf of the American Red Cross. My name 
is Marita C. Wenner and I serve as the volunteer chair of the 
Pennsylvania State Disaster Committee of the American Red Cross. I 
previously served, for 17 years, as the Executive Director of the Wayne 
Pike Chapter of the American Red Cross and am currently the Chairman of 
the Board. I am a resident of this community and would especially like 
to acknowledge Vice Chairman Tom Marino for his leadership as we 
continue to recover from the impact of Hurricane Irene and Tropical 
Storm Lee as well as his role in bringing this important hearing to 
Northeast Pennsylvania.
    I started my Red Cross career responding to single-family house 
fires in Wayne and Pike counties, helping my neighbors recover from the 
devastation of losing all their belongings, having nowhere to go, not 
knowing what to do next. I am one of thousands of Red Cross volunteers 
who respond to disasters across the country when the need arises. Over 
the past 20 years, I have learned that whether it is a house fire or a 
catastrophic disaster event, people have the same concerns and needs. 
They need information on where to go for help, how to begin their 
recovery, and most of all they need someone to listen to their story 
with a caring heart. This is a small part of what the American Red 
Cross does in times of disaster and I am very fortunate to be a part of 
this outstanding organization.
    Since its founding in 1881, our Nation has turned to the American 
Red Cross in emergency situations. As part of its mission, the Red 
Cross has provided shelter, food, clothing, emotional, and other 
support to those impacted by disasters in communities across the 
country and around the world. We supply nearly half of the Nation's 
blood. We teach life-saving skills to hundreds of thousands of people 
each year, and we provide resources to the members of the military and 
their families. Whether it is a hurricane or a heart attack, a call for 
blood or a call for help, the Red Cross is there.
    Today's hearing topic, ``Ensuring Effective Preparedness and 
Response: Lessons Learned from Hurricane Irene and Tropical Storm Lee'' 
is of vital interest to the Red Cross and particularly important to me 
and my colleagues serving both Nationally and here in Pennsylvania. 
This has been a historic year for disaster response--beginning in the 
spring with an unprecedented number of severe storms and tornados that 
culminated with Hurricane Irene and Tropical Storm Lee. We are grateful 
for the opportunity to share our operation details and thoughts on best 
practices in preparation for future events.

                 HURRICANE IRENE AND TROPICAL STORM LEE

    As you may know, Hurricane Irene and Tropical Storm Lee caused 
devastating flood and wind damage in communities from North Carolina to 
New England, affecting millions of residents. These historic storms 
flooded roads, damaged and destroyed homes, caused power outages and 
prompted the evacuation of hundreds of thousands of families across the 
Eastern Seaboard.
    In response to the threat of Hurricane Irene, the Red Cross 
mobilized a massive response and urged residents to prepare for Irene's 
impact. Thousands of pre-packaged meals were deployed from North 
Carolina to Maine. In addition, approximately 250 emergency response 
vehicles were placed on alert and mobilized to support disaster relief 
operations in many of the coastal States. As Irene made landfall, more 
than 27,000 people found a safe haven in approximately 500 shelters. By 
September 7, 2011, alongside community and Government partners, the Red 
Cross had provided 1.8 million meals and snacks, opened 492 shelters, 
provided 22,000 health and mental health consultations, and distributed 
nearly 127,000 relief items.
    After Tropical Storm Lee hit, some residents returned to find homes 
that were damaged beyond repair. Red Cross shelters remained open in 
New York, Pennsylvania, Virginia, and New Jersey to house those still 
displaced for several weeks after these storms made landfall. To help 
families with the task of clearing their homes of debris and mud, the 
Red Cross provided over 55,000 clean-up kits and hundreds of thousands 
of other relief items to aid those affected.
    I was dispatched along with many other volunteers prior to landfall 
of Hurricane Irene to the Red Cross Chapter in New York City, where I 
worked directing the preparedness activities anticipating what might be 
one of the worst natural disasters the city and State had ever 
encountered. Post-landfall, the valuable lessons we have learned from 
past catastrophic hurricanes helped us to mount an integrated and 
collaborative response with our Government and non-Government partners 
across the Northeast United States. After 2 weeks in New York, I 
shifted focus to Pennsylvania. I was quickly sent to help coordinate 
the efforts of the Pennsylvania chapter. With my experience of prior 
flooding events in Pennsylvania I understood the enormous disaster 
implications of the predicted amount of rain that was falling across 
the area.
    Over the years, the Pennsylvania Red Cross has made great progress, 
using our resources, both material and human, to our best advantage 
during disasters. We have developed regional systems to respond quickly 
and assess the resources needed to help our neighbors during disasters. 
We work closely with our partner agencies to identify the disaster-
caused needs of our communities and work collaboratively for a timely 
response. This disaster would test our preparedness and become an 
unprecedented Pennsylvania response. We were able to rapidly move 
people and supplies from unaffected areas of the State, such as Erie 
and Pittsburgh to the affected Central and Northeast areas, such as 
Pine Grove, Bloomsburg, Wilkes-Barre, Sayre, and Tunkhannock. As 
disaster needs increased and evolved, we relied on assets from our 
National system to support our State-wide response.

      AMERICAN RED CROSS SERVICES--WHAT WE DO IN TIMES OF DISASTER

    Our citizens rely on the American Red Cross to provide comfort and 
care during an emergency. The American Red Cross will be there to 
provide the basics of food, shelter, and a shoulder to lean on in times 
of disaster. But it is important to know the details of these services 
and I would like to take a moment to expand upon each service.
    Sheltering.--Shelters often become a focal point for the 
interaction between disaster survivors and the community at large. They 
are a place of safety, refuge, and comfort for many. When a family or 
individual walks through the door of a shelter operated or supported by 
the Red Cross, they can expect food, a safe place to sleep, mental 
health support, and access to some basic first aid and health care.
    The Red Cross works closely with Government and community partners 
to initiate sheltering activities in schools, churches, or other large 
facilities for individuals and families. Shelters may be opened in 
anticipation of a disaster, during an evacuation or post-disaster. 
Shelters are not closed until the disaster-caused housing needs of all 
of the occupants are met.
    We coordinate all of our shelter operations with our Government 
partners using a database called the American Red Cross National 
Shelter System. We are committed to the important work of moving people 
out of the shelter environment and into transitional and long-term 
housing. This is where our communities truly depend on the 
collaboration and partnerships with Federal, State, and local 
government. In Pennsylvania, we were challenged by housing shortages in 
our Northern counties and worked closely with our partners making sure 
that shelter clients' housing needs were met.
    Feeding.--In addition to feeding people at shelters, the Red Cross 
also provides food in affected areas for people who cannot travel to a 
shelter, for those who choose to stay in their homes or for those 
cleaning up after a storm. Emergency workers or other groups helping in 
disaster relief efforts are provided meals, as well. Mobile feeding is 
critical to meeting the immediate needs of affected communities. Red 
Cross workers often drive through affected neighborhoods delivering 
meals, snacks, and beverages to people returning to and cleaning up 
damaged homes.
    Distribution of Supplies.--In many disasters, essential items 
clients need to assist their recovery might not be immediately 
available in the local area. In such cases, the Red Cross distributes 
throughout the affected areas items that may be needed. During 
Hurricane Irene and Tropical Storm Lee the Red Cross distributed 
truckloads of clean-up kits, rakes, shovels, garbage bags, 
disinfectant, gloves, masks, insect repellant, sunscreen, personal 
toiletries items, and ready-to-eat meals. In Pennsylvania, we engauged 
partner agencies such as the Boy Scouts and our corporate partners to 
work at our warehouse assembling hundreds of coolers packed with shelf-
stable food, recovery supplies, and information which were distributed 
to families across the affected areas.
    Disaster Mental Health Services.--Red Cross workers provide vital 
mental health services helping people cope with the after-effects of a 
disaster. Our mental health workers are present at shelters, feeding 
sites, and aid stations. They also travel with caseworkers and visit 
families in disaster-affected neighborhoods where clean-up and 
rebuilding is taking place. Red Cross mental health volunteers are 
licensed mental health professionals and often work with practitioners 
in the community to provide services where the need is greatest. In 
Pennsylvania, our mental health workers were embedded throughout our 
response, working on feeding trucks, with caseworkers, and with partner 
agencies. They were there listening to the stories of everyone in the 
community affected by the disaster. They helped families begin their 
recovery process with valuable information and guided them to seek 
further help if needed. In addition to our mental health volunteers, 
the Red Cross encourages all of our workers to take our Psychological 
First Aid Course so that more of our volunteers are prepared to help 
clients and each other in times of extreme stress.
    Client Casework.--Disaster victims often need the type of one-on-
one advocacy that caseworkers can provide. Few things are more 
rewarding than working with a family to help the family begin their 
recovery after a disaster. Each family has unique needs that skilled 
Red Cross caseworkers can help to address, and caseworkers provide 
referrals to community resources and agencies as necessary. Because of 
the sheer number of agencies involved in a successful response, it is 
often hard to know where to get help and how to start on the road to 
recovery. Caseworkers advocate on behalf of the client to access the 
needed resources. They provide a caring heart and a listening ear.
    Outreach to People With Disabilities.--In developing mass care and 
sheltering capacity throughout the community, the American Red Cross is 
making it a priority Nation-wide to ensure that services and shelters 
are as accessible as possible to people with disabilities. Our Red 
Cross chapters work closely with local experts on access and functional 
needs issues. We strive to staff shelters with workers who have the 
knowledge and experience to evaluate the needs of clients and to make 
the adjustments and accommodations to ensure a safe and comfortable 
stay.

                 RED CROSS VOLUNTEERS AND PARTNERSHIPS

    Red Cross disaster responses are primarily led and delivered by 
volunteers. In addition to local volunteers who respond to an average 
of 200 disasters a day Nation-wide, a network of more than 70,000 
trained volunteers is available to respond to larger events. The 
American Red Cross also has the capacity to manage large numbers of 
spontaneous volunteers (more than 230,000 volunteers participated in 
the 2005 response to Hurricanes Katrina, Rita, and Wilma). In addition, 
key partners such as Southern Baptist Disaster Relief provide an 
enormous resource for helping those in need. Other key partners like 
the NAACP, National Disability Rights Network (NRDN) and faith 
organizations further extend service capabilities. Our model for 
disaster services is collaborative; it takes the entire community to 
deliver an effective response in a large-scale event.

                   RED CROSS RESPONSE IN PENNSYLVANIA

    The Red Cross response to Hurricane Irene and Tropical Storm Lee in 
Pennsylvania was immediate and comprehensive. Shelters were opened and 
staffed across the area in anticipation of the need. Mobile feeding was 
established as soon as weather permitted and it was safe to do so. 
Within days, we secured donated warehouse space at the Humbolt 
Industrial Park in Hazleton. The Red Cross opened a combination 
operation headquarters, mobile feeding kitchen, staffing center, and 
storage facility for bulk supplies.
    From this site, we were able to deploy 98 Emergency Response 
Vehicles with food and relief supplies ranging from Susquehanna and 
Bradford counties to affected areas south of Harrisburg and across the 
central area of the State. Over the length of these storms, the Red 
Cross provided a safe place to stay for over 8,000 people in 100 
shelters, and served over 400,000 meals and snacks.
    Our response efforts were driven by volunteers--many of whom came 
from across the country--to help provide a wide range of services. 
These services included more than 4,525 mental and disaster health 
consultations from volunteers who listened and helped families move 
forward in their recovery. In total, the Red Cross had 1,870 workers on 
the ground, 1,734 of which were volunteers.
    We are working closer than ever with our colleagues in the 
nonprofit, charitable, and faith-based communities to expand our reach. 
We continue to focus on our coordination with Federal, State, and local 
officials. Here in Pennsylvania, the partnership we have built with 
State and County Emergency Management is strong. From responding to 
single family fires to a major hurricane response, we strive to keep 
our Emergency Management Partners well informed and cooperate and 
collaborate to better serve disaster survivors.

         GOVERNMENT, NONPROFIT, AND OTHER PARTNER COLLABORATION

    In Pennsylvania, as is the case across the country, the American 
Red Cross staffs the State and local Emergency Operation Center(s) 
(EOC) with Red Cross Government Liaisons who collaborate with 
Government and nonprofit agency counterparts. The Red Cross also 
actively works with the local Voluntary Organizations Active in 
Disaster (VOAD), which is a coalition of independent voluntary agencies 
that meet regularly to ensure a coordinated community response that 
addresses the needs of victims and minimizes redundancies of services. 
To ensure effective disaster readiness and response, the Red Cross has 
established relationships with partner community agencies. We have 
partnerships with National-level agencies and organizations as well as 
local agencies and organizations.
    In Pennsylvania, through a community partnership with the Southern 
Baptist Convention, we were able to set up two mobile kitchens units 
capable of preparing 20,000 meals a day to distribute meals and snacks 
throughout the Commonwealth. Several partner organizations supported 
the massive Red Cross relief effort in the State. County mental health 
agencies throughout Pennsylvania deployed volunteers to assist at Red 
Cross emergency aid stations. The American Humane Association set up 
shelters for animals so that people forced to leave their homes had 
somewhere to take their family pets. Mennonite Disaster Services helped 
people clean out their homes. The Teamsters helped with transporting 
supplies. Countless local businesses and organizations donated over 
$400,000 worth of in-kind supplies and materials to help with the 
response effort. It was through this collaborative effort that we were 
able to help those in need.

                          KEY LESSONS LEARNED

    After reviewing our response in Pennsylvania, several themes 
emerged.
  <bullet> There is a continuous need to recruit, develop, and train 
        local volunteers. This reduces response time and operating 
        costs, and it creates teams of volunteers that are already 
        familiar with one another prior to the disaster.
  <bullet> We must continue to aggressively provide preparedness 
        information ahead of events to those communities in the path of 
        the storm. When storms are bearing down on our homes, we know 
        from experience that our communities will listen. The 
        opportunity--albeit brief--is there to ensure everyone has the 
        information and resources they need in advance. When families 
        are prepared, lives are saved.
  <bullet> Consistent, on-going, State-wide planning and collaboration 
        is critical to a successful response. Over the past few years, 
        the numbers of agencies, community expectations, and resource 
        challenges have increased dramatically. The complexities and 
        interdependencies with all levels of Government have never been 
        greater, and our success in coordinating responses is directly 
        related to how well we staff Emergency Operations Centers and 
        Federal agencies.
  <bullet> Strengthening partnerships with other agencies and 
        businesses remains a key factor to our success going forward. 
        If a client needs a cot or a meal, it is of no consequence to 
        the client who provides it.
  <bullet> Shelters provide important social hubs, but we need to focus 
        on transitioning shelter residents to longer-term housing 
        solutions more quickly. The faster that sheltering operations 
        can transition to more permanent solutions, the sooner that 
        residents--including vulnerable populations such as children, 
        the elderly, and those with disabilities--can return to normal 
        activities and move towards recovery.
  <bullet> Partnering remains critical to a successful response, as no 
        one agency can meet the needs of the community in a major 
        event. Government, NGOs, the faith community, advocacy groups, 
        the private sector, and the individual citizen each play a 
        critical role in the response. We must continue to build these 
        partnerships at all levels.
  <bullet> Responses that cover a wide geography, as was the case with 
        Hurricane Irene and Tropical Storm Lee, test our ability to 
        scale and to identify key leadership. As you know, we had 
        significant sheltering and response activity from North 
        Carolina to Maine. Moving forward, we will continue to focus on 
        maintaining resource levels and on growing leadership within 
        our Disaster Services volunteer system so that we can deliver 
        the needed services regardless of the geographic scope of an 
        operation.

                            CLOSING REMARKS

    Mr. Chairman and Members of the subcommittee, thank you once again 
for this opportunity to provide testimony. The American Red Cross is 
committed to being ready for whatever disaster may strike. Hurricane 
Irene and Tropical Storm Lee were storms that tested our communities, 
but I am pleased that the American Red Cross and our volunteers and 
partners could play a role in the successful response. To mount an 
effective response, entire communities need to work together, and we 
need to be sure that we are ready to do our part.
    I am happy to address any questions you may have.

    Mr. Bilirakis. Thank you, Ms. Wenner.
    Now Mr. Brozena, you are recognized for 5 minutes, sir.

   STATEMENT OF JAMES J. BROZENA, P.E., EXECUTIVE DIRECTOR, 
           LUZERNE COUNTY FLOOD PROTECTION AUTHORITY

    Mr. Brozena. Good morning. Welcome to Pennsylvania.
    My name is Jim Brozena and I am the executive director of 
the Luzerne County Flood Protection Authority. Thank you for 
the opportunity to provide my insights into lessons learned 
during the recent Tropical Storm Lee event and my comments 
regarding the Federal response to recovery efforts.
    To provide you with some background, the authority operates 
and maintains the Wyoming Valley levee system, which consists 
of approximately 16 miles of levees and floodwalls and provides 
protection for approximately 65,000 residents from the 
Susquehanna River.
    On Monday, September 5, the National Weather Service 
provided its first briefing and the briefing continued 
throughout the week as the situation worsened. The web-based 
briefings provided an efficient means of informing emergency 
management personnel from all counties in the region 
concurrently about current and projected river conditions. The 
authority contacted the Army Corps of Engineers Baltimore 
District to request assistance in the emergency operations 
during the event.
    The Wyoming Valley was placed under a mandatory evacuation 
beginning at 4 p.m. on Thursday as the river was now projected 
to crest at 41 feet later that evening. Approximately 100,000 
residents would be evacuated. The projected crest would match 
the flood of record for Wilkes-Barre set in 1972.
    The authority was fortunate to have the Corps of Engineers 
as well as several professional engineers in the county 
volunteer their assistance with levee patrols. In addition, a 
local contractor volunteered to stage equipment and material. 
All of their efforts would be required in the next 24 hours to 
contain the river.
    On Thursday evening, it appeared that the river had finally 
crested at 38\1/2\ feet. However, the USGS gauge had actually 
reached its operating limit. During a review of a repair over 
in Forty Fort that evening, officials determined that the gauge 
had actually failed and that the river actually crested early 
Friday morning at 42.66 feet. This surpassed the previous flood 
of record set in 1972, Tropical Storm Agnes, and was 1.66 feet 
greater than the design of the levee system.
    Residents in the protected areas were allowed to return to 
their homes Saturday afternoon. The levee system had prevented 
approximately $4 billion in damages. Unfortunately, though, not 
all areas of the Wyoming Valley escaped unharmed. Nearly 3,000 
properties in unprotected communities were flooded.
    The early notification from the National Weather Service 
and the river forecast centers, the expertise of the Corps and 
the local engineering professionals, the skills of local 
contractors and local municipal public works employees and the 
dedication of hundreds of volunteers prevented Tropical Storm 
Lee from becoming a much larger disaster.
    Some of the lessons learned: The USGS gauge, well, they 
took immediate action following the event to relocate the gauge 
so that it now reads to a height higher than the actual levee 
system, and in addition, they have come to the realization of 
its need to make data users aware of the operating limits and 
gauge heights of the features. It has spurred a movement to 
accomplish this Nationally within the USGS.
    The Corps of Engineers emergency management preparedness: 
As local sponsors struggle with budgetary constraints, less and 
less qualified staff is available for levee patrols. The 
involvement of Corps engineers on-site is crucial during major 
flood events. Also, the Corps should develop high-water 
operations training and hold annual training sessions for local 
project sponsors. Training videos should be created and made 
available and would allow for additional local training 
opportunities.
    Interagency coordination: The Susquehanna River Basin 
Commission has expanded its annual Susquehanna flood forecast 
warning interagency committee meeting to include a discussion 
with emergency managers and municipal officials to evaluate 
system performance and share lessons learned.
    Public Law 84-99 funding, which is the Corps' ability to 
fix projects and inspect and rehabilitate flood damage: 
Unfortunately, the time line for the process is long. Even if 
projects are economically justified, funding may not be 
available. Local sponsors like the authority do not have the 
funding available to address damages caused by significant 
flood events. Delays in addressing repairs puts individuals' 
safety and property at risk.
    Susquehanna Flood Forecast and Warning System: A permanent 
solution to funding the $2.4 million annual expense of the 
Susquehanna Flood Forecast and Warning System must be 
identified. This system provides the data that is used to 
forecast river levels and issue more accurate early flood 
warnings. The system is extremely cost-effective, providing a 
20:1 benefit-to-cost ratio.
    Levee project funding: The levee-raising project started 
immediately after the flood in 1972. Sadly, the project is 
still not complete. While the major flood control portions are 
complete, Federal funding for the mitigation program is not in 
place. The lack of adequate Federal project funding since 2009 
has prevented the mitigation program from being completed. With 
adequate project funding, additional projects and properties 
could have been done and we would have suffered less damage in 
those communities.
    Pennsylvania is one of the most flood-prone States in the 
country. It consists of 67 counties with nearly 2,600 
municipalities. Luzerne County alone has 76 municipalities. 
Many of the communities are staffed by one person that handles 
all administrative functions. Typically, the salaries are low 
and turnover is high, and most do not have the technical 
expertise or training to properly administer the flood 
insurance program.
    Major flood events are infrequent, and the small 
municipalities are paralyzed immediately following an event. It 
is at this point that FEMA assistance is most critical as 
municipal leaders are bombarded with questions regarding flood 
recovery. Whether there is a Presidential disaster declaration 
or not, FEMA should immediately contact municipalities and 
remind them of their responsibilities to enforce the 
requirements of the flood insurance program. Visits to 
municipalities must occur in a more timely fashion. Most visits 
did not occur until 30 days after the event, and some 
municipalities unfortunately have still not had their visits.
    In addition, while FEMA has thousands of publications, it 
does not have a Flooding 101 document. This manual would 
consist of a comprehensive step-by-step reference regarding all 
necessary actions a municipality must undertake following a 
major disaster.
    Failure to involve county officials in the recovery effort 
is an error. County staff could act as the liaison between FEMA 
and the affected municipalities and allow for a consistent 
measure being presented. A more efficient means of dealing with 
substantially damaged or destroyed structures must be 
identified. Property owners will not even know if their 
property is possibly included for acquisition until the end of 
January 2012. A timeline for acquisition still has not been 
determined. Individuals damaged by flooding cannot be expected 
to wait the 1\1/2\ to 3 years that a typical hazard mitigation 
project takes.
    Finally, thank you for the opportunity to provide my 
comments. Federal officials need to have a better understanding 
of the challenges facing local governments and agencies and 
evaluate modifications to their programs.
    This concludes my testimony. Again, thank you. If you have 
any questions, I will be glad to answer them.
    [The statement of Mr. Brozena follows:]

                 Prepared Statement of James J. Brozena
                           November 29, 2011

    Mr. Chairman and Members of the subcommittee, good morning and 
welcome to Northeastern Pennsylvania. My name is James Brozena and I am 
the executive director of the Luzerne County Flood Protection 
Authority. Thank you for the opportunity to provide my insights into 
lessons learned during the recent Tropical Storm Lee event and my 
comments regarding the Federal response to recovery efforts.
    To provide you with some background, the Authority operates and 
maintains the Wyoming Valley Levee System located in the Wyoming Valley 
in northeastern Pennsylvania. The Wyoming Valley Levee System consists 
of approximately 16 miles of levees and floodwalls, 13 pump stations, 
closure structures, and relief wells. The system provides protection 
for approximately 65,000 residents located in nine communities from the 
Susquehanna River. The Wyoming Valley Levee Raising Project, which 
raised the existing levees overtopped in 1972 by Tropical Storm Agnes, 
started construction in 1997. Work is still on-going.

                   TROPICAL STORM LEE--SEPTEMBER 2011

Levee System
    On Monday, September 5, the National Weather Service Binghamton 
Office provided its first briefing from its Warning Coordinating 
Meteorologist. Briefings continued on throughout the week as the 
situation worsened. The web-based briefings provided an efficient means 
of informing Emergency Management personnel from all counties in the 
region concurrently about current and projected river conditions. Also, 
it gave Emergency Management officials the ability to understand issues 
and problems occurring in neighboring counties. The ``local knowledge'' 
of all areas in the service area allowed for keen insights by the 
National Weather Service meteorologists. If specific areas of concern 
were observed, the National Weather Service and River Forecast Centers 
were available for direct consultation.
    As the projected river crests continued to rise, the Authority 
contacted the U.S. Army Corps of Engineers, Baltimore District, to 
request assistance in the emergency operations during the event. 
Multiple teams arrived Thursday afternoon. The Wyoming Valley was under 
a mandatory evacuation beginning at 4 p.m. Thursday as the river was 
now projected to crest at 41 feet later that evening. Approximately 
100,000 residents would be evacuated. The projected crest would match 
the flood of record for Wilkes-Barre set in 1972.
    The Authority was fortunate to have several professional engineers 
from the county volunteer their assistance with the levee patrols. 
Also, several Corps personnel that resided in the area volunteered 
their help as well. In addition, a local contractor, Mericle 
Construction, offered to stage equipment and material at several 
locations in the event that it would be needed. All of their efforts 
would be needed in the next 24 hours to contain the river.
    Issues developed with the closure structure as the Market Street 
Bridge in both Kingston and Wilkes-Barre as seals failed. A flood wall 
in Forty Fort began to crack and the Corps provided the Authority 
recommendations on an interim solution. Mericle Construction completed 
the work about 2 a.m. Friday morning.
    At that point it appeared that the river had crested at 38.5 feet; 
however, the United States Geological Survey (USGS) gauge had reached 
its operating limits. This information was not known by the Authority, 
the Corps, the National Weather Service or the Susquehanna River Basin 
Commission. During a review of the Forty Fort repair officials 
determined that the gauge had failed and that the river had crested 
early Friday morning, September 8, 2011 at 42.66 feet. This surpassed 
the previous flood of record set during Tropical Storm Agnes in June 
1972 and was 1.66 feet above the design height of the raised levee 
system.
    Additional problems arose Friday morning with boils in Forty Fort, 
Kingston, and Plymouth. The water began to recede and residents in the 
protected areas were allowed to return to their homes Saturday 
afternoon. The Wyoming Valley Levee System had prevented approximately 
$5 billion in damages.
    Unfortunately, not all areas of the Wyoming Valley escaped 
unharmed. Nearly 3,000 properties in unprotected communities were 
flooded.
    The early notification from the National Weather Service and the 
River Forecast Center, the expertise of Corps and local engineering 
professionals, the skills of local contractors and local municipal 
public works employees, and the dedication of volunteers prevented 
Tropical Storm Lee from becoming a much larger disaster.
    The Luzerne County Board of Commissioners, the Luzerne County 
Emergency Management Agency, the National Guard, the Red Cross, the 
Pennsylvania State Police, the Pennsylvania Department of 
Transportation and all of the other county, State, and municipal 
officials and especially the volunteers are to be commended for their 
efforts during of the event. During a very difficult time, everyone 
remained focused on accomplishing the tasks at hand to ensure the 
safety of lives and property.

                            LESSONS LEARNED

Levee System
    USGS Gauge.--USGS took action immediately after the flood event to 
relocate the Wilkes-Barre gauge to a location that allows it to now 
read river heights in excess of the top of the levee system. The new 
gauge was installed within 30 days of the flood event. USGS is working 
with the Authority to install a staff gauge in the event of a failure 
of the electronic gauge. In addition, USGS has come to the realization 
of its need to make data users aware of operating limits and gauge 
heights of features. It has spurred a movement to accomplish this 
Nationally within the USGS.
    Corps of Engineers Emergency Management and Preparedness.--As local 
project sponsors struggle with budgetary constraints, less and less 
qualified staff is available for levee patrols. The involvement of 
Corps engineers on site is crucial during major flood events. Also, the 
Corps should develop High Water Operations training and hold annual 
training sessions for local project sponsors. A training video should 
be created and made available that would allow for additional local 
training opportunities.
    Interagency Coordination.--The Susquehanna River Basin Commission 
has expanded its annual Susquehanna Flood Forecast and Warning 
Interagency Committee meeting to include a discussion with emergency 
managers and municipal officials to evaluate system performance and 
share lessons learned during Hurricane Irene and Tropical Storm Lee.
    PL84-99.--After major flood events, the Corps has the ability to 
inspect and rehabilitate flood damage reduction projects. 
Unfortunately, the time line for the process is long. Even if projects 
are economically justified, funding may not be available. Local 
sponsors, like the Authority, do no have the funding available to 
address damages caused by significant flood events. Delays in 
addressing repairs put individuals' safety and property at risk.
    Susquehanna Flood Forecast and Warning System.--A permanent 
solution to funding the $2.4 million Susquehanna Flood Forecast and 
Warning System must be identified. The system uses radar and a network 
of stream and rain gauges to provide the data that are used to forecast 
river levels and issue more accurate early flood warnings. The system 
provides the National Weather Service the critically important data 
necessary to issue flood warnings. The System is extremely cost-
effective, providing a 20-to-1 benefit-cost ratio.
    Levee Project Funding.--The Wyoming Valley Levee Raising project 
started immediately after the Agnes flood in 1972. Sadly, the project 
is still not complete. While the major flood control works are 
complete, Federal funding for the mitigation program is not in place. 
The project contains a Mitigation Program that provides $23 million for 
flood reduction activities in 53 unprotected communities located in 
five counties. A GIS-based Flood Warning System has been used by 
Emergency Managers for nearly 10 years to provide early notifications 
that have allowed individuals to take protective actions during 
flooding events. Hazard Mitigation Plans were developed. Approximately 
20 homes have been acquired and demolished and numerous other 
structural flood mitigation projects completed. However, the lack of 
adequate Federal project funding since 2009 has prevented additional 
projects from being completed. With adequate project funding, 
additional projects could have been done that would have reduced 
damages.

                            LESSONS LEARNED

Post-Event--Unprotected Communities
    Pennsylvania is one of the most flood-prone States in the country. 
Pennsylvania consists of 67 counties with nearly 2,600 municipalities. 
Floodplain management responsibilities under the National Flood 
Insurance Program fall to the municipalities. In Luzerne County, there 
are 76 municipalities. Many of the communities are staffed by one 
person that handles all administrative functions. Typically salaries 
are low and turnover is high. Most do not have the technical expertise 
or training to properly administer the flood insurance program.
    Major flood events are infrequent and the small municipalities are 
paralyzed immediately following an event. It is at this point that FEMA 
assistance is most critical as municipal leaders are bombarded with 
questions regarding flood recovery.
    Whether there is a Presidential disaster declaration or not, FEMA 
should immediately contact municipalities by phone or e-mail and remind 
them of their responsibilities to enforce the requirements of the flood 
insurance program. Visits to municipalities must occur in a more timely 
fashion. Most visits did not occur until nearly 30 days after the event 
and some municipalities still have not been visited.
    In addition, while FEMA has thousands of publications, it does not 
have a ``Flooding 101'' document. The manual would consist of a 
comprehensive step-by-step reference regarding all necessary actions a 
municipality must undertake following a major disaster. While I use 
flooding as the topic, the manual should address all hazards.
    Looking forward, FEMA should require the annual registration of a 
municipal floodplain manager. In addition, video training or webinars 
should be developed to continue to educate municipal officials 
regarding the National Flood Insurance Program.
    Failure to involve county officials in the recovery effort is an 
error. County staff could act as the liaison between FEMA and the 
affected municipalities and allow for a consistent message being 
presented.
    A more efficient means of dealing with substantially damaged or 
destroyed structures must be identified. Property owners flooded in 
September will not even know if their property is possibly included for 
acquisition until the end of January. A time line for acquisition still 
has not been determined. Individuals damaged by flooding cannot be 
expected to have to wait the 1\1/2\ to 3 years that a typical Hazard 
Mitigation Project takes.

                               CONCLUSION

    Thank you for the opportunity to provide my comments on emergency 
preparedness and response and the lessons learned during Tropical Storm 
Lee. Federal officials need to have a better understanding of the 
challenges facing local governments as the agencies evaluate 
modifications to their programs.
    This concludes my testimony. Again, thank you for this opportunity. 
I hope that our actions today lead to a more efficient response for the 
next disaster. If you have any questions, I would be pleased to answer.

    Mr. Bilirakis. Thank you, Mr. Brozena.
    Mr. Good, you are recognized for 5 minutes.

      STATEMENT OF JAMES GOOD, OWNER, AREY BUILDING SUPPLY

    Mr. Good. Thank you, Chairman Bilirakis.
    Arey Building Supply was substantially flooded September 8, 
2011, from Tropical Storm Lee. It had never been flooded 
before. There are about 18 to 20 businesses and 4 to 5 homes--
although that may be a low number on the homes--along the Wysox 
Golden Mile, which is U.S. Route 6, that were flooded that day.
    The store, warehouse, and sheds had almost 2 feet of muddy 
water in them. Lumber had floated out onto Route 6, into 
neighbors' yards and to other businesses. Employees and 
neighbors gathered in all that they could find to return to the 
yard area. Mud clogged the parking lot storm drainpipe and it 
had to be replaced.
    The store was only closed September 8, but for several days 
customers were not allowed in the floor because of slippery mud 
on the floor. Desired merchandise was brought to the door for 
each customer's request. The store has been kept open 7 days a 
week all through the clean-up and repairs. This caused problems 
for employees and customers alike trying to find things that 
were moved because of putting down new floors, tearing off 
walls for new sheetrock and insulation and a new heating system 
and new bathrooms. Repairs will be complete December 18 with 
the installation of new shelving throughout the door.
    The cost to Arey Building Supply is approximately $310,000, 
although about $65,000 of that amount was due to renovations to 
offices. We took the opportunity, since everything was a mess, 
to make some changes to the store and make more store space 
where there were formerly offices.
    Approximately a week after the flood, I tried to gather 
businesses together to see what we could do about the Laning 
Creek, which had caused the flood. As I stated, it had never 
been flooded before, that area of U.S. Route 6. We met in a 
chamber meeting in October along the Wysox Golden Mile, and 
since then there have been donations made to a fund to try and 
get enough money together to dredge Laning Creek between U.S. 
Route 6 and the railroad track. That area had plugged up with 
debris and trees and that caused the flooding in that area.
    The flood had occurred over a 12-hour period. In 12 hours 
it had flooded everything there and went back down to the point 
where we could get to the businesses, unlike river flooding 
that lasts over several days. I believe that the problem in 
that area could be averted if we were allowed to dredge Laning 
Creek. The process to get a permit to do that is quite 
cumbersome, and we have been working on that for 2 months 
trying to get the paperwork in order to apply for a permit to 
do that. We still have not--it has been turned over to an 
engineer because frankly we are not capable of getting all the 
stuff together. Hopefully that process will be complete soon 
and we will be able to apply for a permit to dredge the creek.
    That completes my report. Thank you.
    Mr. Bilirakis. Thank you very much.
    I am going to ask Mr. Marino if he would like to include 
this article from The Daily Review into the record, sir.
    Mr. Marino. Yes, Chairman.
    Mr. Bilirakis. Okay. Then without objection, so ordered.
    [The information follows:]

                          Preventing Flooding
                       Published: October 6, 2011
By James Loewenstein (Staff Writer) 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Photo/JAMES LOEWENSTEIN.--Wysox Township businessman James Good, left, 
and Wysox Community Chamber of Commerce President Bill Them discuss a 
proposed debris-removal project to help prevent further flooding of 
businesses in Wysox Township.

    WYSOX TOWNSHIP.--A campaign is under way to raise $15,000 to clean 
out a section of the Laning Creek in order to help prevent future 
flooding of businesses on U.S. Route 6 in Wysox Township.
    The project would involve removing trees branches, gravel and other 
debris from the creek starting at a point behind the Comfort Inn and 
ending at the bridge that carries the Lehigh Railway line over the 
creek, said James Good, who is spearheading the project, and who, along 
with his wife, owns Arey Building Supply in Wysox Township and Mountain 
Lake Electric.
    Over 20 businesses on Route 6 in Wysox Township were impacted by 
the flooding that occurred during Tropical Storm Lee, said Good, who 
discussed the project at a meeting on Wednesday of the Wysox Community 
Chamber of Commerce.
    ``If we don't do something about the Laning Creek, the flooding 
could happen again within the next year,'' Good said at the meeting, 
which was held at A.J.'s Family Restaurant.
    Good said that there is a curve in the creek behind the Bonanza 
Restaurant and the Comfort Inn where trees became lodged during 
Tropical Storm Lee, which caused water to flow out of the creek bed and 
flood businesses along Route 6.
    ``The major problem'' that resulted in the flooding of businesses 
along Route 6 in Wysox Township was water being diverted from the 
Laning Creek, he said.
    Good said he has lined up a contractor to do the debris removal, 
and has applied for a permit from the DEP to do the work. He said the 
process for approving the permit is 80 to 90 percent complete.
    Good and Wysox Community Chamber of Commerce President Bill Them 
both said they think the permit will be approved.
    Good ``said the DEP told him they didn't think it would be a 
problem'' having the permit approved, Them said in an interview after 
the meeting.
    Wednesday's Chamber of Commerce meeting was open to the public, and 
several people who attended it said they thought there were additional 
reasons for the flooding along Route 6 in the township. For example, 
Budd Clark Sr., who co-owns Clark Furniture, said he thought a bridge 
that carries CraftMaster Road over Laning Creek contributed to the 
flooding, because it doesn't have enough capacity to allow the entire 
creek to flow under it during the kind of flood conditions that took 
place last month.
    But in an interview after the meeting, Good said the bridge was not 
a factor in the Tropical Storm Lee flooding of Route 6, because the 
land at the site of the bridge is sloped southward, which would have 
carried water that backed up at the bridge away from Route 6, not 
toward it.
    Good is asking businesses that were affected by the flooding to 
donate toward the debris-removal project, and he said he is also 
seeking donations for the project from the public and from the chamber 
of commerce.
    He said that if each of the businesses that was impacted by the 
flooding donated $500, and if the chamber of commerce made a donation, 
there would be enough money to pay for the Laning Creek project.
    After the meeting, Them said there was a total of $1,500 in 
donations lined up so far for the Laning Creek project.
    Those who said they were donating toward the project included Good, 
Them, and Beers Auto & Tag owner Wilbur Beers.
    Retired local businessman Newman Benson urged business owners to 
donate.
    ``Businesses can't survive without doing some of these things'' to 
prevent further flooding, he said. ``You have to step up and cash 
out.''
    Good has asked the chamber of commerce to endorse the debris 
removal project.
    In an email that Them sent out after the meeting to all the members 
of the chamber of commerce, Them wrote that the members of the chamber 
of commerce who were at Wednesday's meeting were in favor of the 
chamber of commerce making that endorsement.
    Anyone who cares to donate to the Laning Creek debris removal 
project should make out a check to the Wysox Community Chamber of 
Commerce, earmark it for the ``Laning Creek project,'' and mail it to 
the Wysox Community Chamber of Commerce, P.O. Box 63, Wysox, PA 18854, 
Them said.
    If, for some reason, the debris removal project does not go 
forward, the money will be returned to the donors, members of the 
chamber of commerce said.

    Mr. Bilirakis. Well, thank you very much. What we will do 
is, we will alternate back and forth and have at least a couple 
rounds of questions, and I will recognize myself for 
approximately 5 minutes to begin and then I will yield to my 
colleague here.
    The first question is for Mrs. Tierney. As you noted in 
your testimony, Mrs. Tierney, the Department of Homeland 
Security released a National Disaster Recovery Framework on 
September 23. How are you working to integrate the NDRF into 
Region 3's recovery efforts, and more specifically, how have 
you incorporated NDRF's six recovery support functions into 
your response to these disasters? Have you received any 
positive--what kind of feedback have you received from the 
State and local first responders about the NDRF? Then again, 
give me some feedback whether it has been positive or negative. 
You are recognized, ma'am.
    Mrs. Tierney. Thank you. We are in the nascent stages of 
rolling out the NDRF within Region 3, specifically in central 
Pennsylvania. From the outset of our major disaster declaration 
even before the NDRF was issued, it was a priority of mine to 
do a major activity in central Pennsylvania around the NDRF as 
it was rolled out.
    So as you mentioned, it was rolled out on September 23, and 
we have been working with the Commonwealth through our 
emergency support function 14, which is long-term community 
recovery, to focus on doing an NDRF rollout session tentatively 
scheduled for January 12 in central Pennsylvania. We 
specifically selected that location given the magnitude of the 
impact of Irene and Lee on the area and the ability to 
capitalize on the coordination mechanisms set up in the NDRF 
for the local governments, for the counties, and for the 
nonprofit and private sector stakeholders to participate in 
that rollout.
    In the interim, prior to the complete rollout of the NDRF 
in Region 3, our ESF 14 staff has been working with several 
townships such as Athens Borough and Shickshinny, which were 
severely impacted by the storms, to look at economic 
development and recovery options and making those communities a 
priority moving forward. To date, I have not specifically 
spoken to any county officials. However, my conversations with 
the Commonwealth indicate that this has been a fairly positive 
experience for them. I look forward to the complete rollout of 
the NDRF in early January to really kick-start the recovery in 
central Pennsylvania.
    Mr. Bilirakis. Mr. Cannon, do you wish to comment on the 
NDRF?
    Mr. Cannon. We are working hand-in-hand with FEMA as a 
pilot as the first rollout of this new program. We have a 
number of community meetings with the ESF 14, which is long-
term recovery staff, and are getting very positive feedback. It 
is a larger program than just finding immediate needs, recovery 
things. It is getting the communities back on their feet 
economically as well as kind of the social-mental issues that 
have to be dealt with as well. So it is an all-encompassing 
long-term recovery program, and we are in the very early stages 
but we think it is an outstanding program.
    Mr. Bilirakis. Thank you, sir. I appreciate it.
    Colonel Anderson, questions for you. In your written 
statement, you mentioned that the Army Corps conducts flood 
preparedness and response exercises with State and local 
partners. Were exercises conducted in this area prior to the 
recent flooding? If so, what were the findings of the exercise, 
and did the exercise help in your response to the storms?
    Colonel Anderson. A new framework has been developed, sir, 
recently. It is a framework called the Silver Jackets program, 
and basically when you think about the Corps of Engineers 
coming to disaster, we have got our red coats on. You see some 
FEMA blue coats here, and there is a lot of questions about, 
you know, how does all this fit together? So under a recent 
agreement with the Commonwealth, we have established the Silver 
Jackets program here. The big idea is that flood risk--planning 
response and rehabilitation to an event does require--it is a 
team sport and requires local, State, Federal, lots of Federal 
different agencies to work together. So we have taken an 
important step, which is actually signing our Silver Jackets 
charter.
    With respect to the specific exercises, I don't have dates 
to give you right now. Within the district, we did a tabletop 
exercise in June 2010, very extensive use of modeling and 
things like that to replicate an actual flood event. In this 
case, it was a hurricane and how would we respond to it 
internally. We did have members of our team that sit in Mrs. 
Tierney's operations center as well as our folks that sit in 
emergency operations centers as liaisons throughout that event. 
So there can be key lessons learned that we take away from--
each and every time that we exercise for an event basically is, 
No. 1, communications is absolutely critical. We need to know 
each others' voices in the dark. We need to know who each 
others' roles are and what our authorities are when it comes to 
responding. We learn once again the value of having boots on 
the ground. We have to have people out there walking around 
projects, you know, in the rain, frankly, at risk in some 
cases, to make sure that we know exactly what is going on. In 
this case, as Mr. Brozena said, the floodgate challenge that we 
had on the Susquehanna was really diagnosed and discovered by 
people walking around on the ground. I think the main lesson 
learned is that we just have to know each others' roles, we 
have to know each others' responsibilities, we have to 
understand each others' role in the process, and I think 
sometimes there can be misunderstandings after the storms 
happen and when the water recedes on what the Federal can and 
should do, what the local can and should do and what the State 
Commonwealth government can and should do. So we just need to 
constantly work that with public service outreach so that folks 
understand exactly who does what.
    Mr. Bilirakis. Thank you, sir. I appreciate it.
    Mr. Good, we constantly hear about the obstacles that small 
businesses face with regard to any natural disaster, and I am 
familiar with it being from the Tampa Bay area of Florida. I 
understand that you had about 17 feet of water around your 
business but it was only closed for, I understand, 1 day, but 
what mitigation, what steps did you take prior to the storms to 
alleviate some of the--well, first of all, we want to reopen 
our businesses as quickly as we possibly can, particularly 
during these troubled economic times. Can you elaborate on the 
steps that you took prior to the storms?
    Mr. Good. First off, it wasn't 17 feet, it was 17 inches in 
the store. We had approximately 2 feet in most of the buildings 
on the property. We took no action ahead of the storm. It 
totally caught us by surprise. It should not have happened. It 
had never happened before. I believe it was mentioned in one of 
the reports here that stuff has built up in the streams over 
years and nobody has taken any steps to clean any streams. I am 
old enough to remember Hurricane Agnes quite well, and I recall 
that after Agnes there was a tremendous amount of clean-up in 
the streams, removing debris and mud and rock and shale out of 
the streams so that the next time there was a serious storm, it 
wouldn't be as badly flooded. However, that was in 1972. Since 
that time, very little has happened to keep any of the streams 
clear of debris and sediment and so forth so they have 
gradually built up, and like I said, this caught us totally by 
surprise. It had never--that area had never flooded before.
    Mr. Bilirakis. Okay. Thank you very much.
    Now I will recognize Mr. Marino for as long as he would 
like during the hearing. Thank you for questions.
    Mr. Marino. Thank you, Chairman.
    I want to focus in on what Mr. Good was stating concerning, 
some people referred to it as dredging the streams and cleaning 
the debris. I refer to it as, you know, removing the gravel 
that has been washed down into the streams and the trees. What 
steps can we take in the future to remove the gravel bars, to 
remove the debris, the trees, the stumps, the rocks coming off 
of the mountainsides that build up somewhere in the streams and 
rivers to divert that? So Colonel Anderson, can you help me out 
with, is it possible to do this? We have thousands of miles of 
streams and rivers in this State. How do we clean that up?
    Colonel Anderson. Sir, I need to go back and check the 
history on what happened earlier. I understand post-Agnes the 
Corps may have been involved in some aspects of stream clean-up 
after the storm, and you are right, removal of material from 
streams within requires a permit from the Corps of Engineers, 
and I will get to that in just a second.
    But with respect to removal, typically, responses like that 
start at the local level. So once the local and State level 
have exceeded their capabilities to respond to something like 
that, then they can request support, get the Corps involved 
through FEMA through the Stafford Act type of thing. But 
typically we don't get involved in things like stream clearing. 
Typically that is massive debris removal on the scale of 
Joplin, on the scale of Katrina, things like that. So the Corps 
doesn't have a standing mission into a local stream and clean 
it up. What we do have a responsibility for is ensuring that we 
act expeditiously and efficiently on permit requests. We are 
the Federal regulatory agency for section 404 of the Clean 
Water Act and the Rivers and Harbors Act. Under those two 
authorities, impacts to either navigable waters in the United 
States or waters in the United States require a Corps permit. 
For 15 years, we had had a State programmatic permit with 
Pennsylvania, which we just renewed, and it is Pennsylvania 
State Programmatic General Permit No. 4, and that has standing 
authorities for folks to go in to do stream clean-up in 
situations of immediate life and safety issues.
    So after the waters go down, which is what Mr. Good is 
talking about, local citizens, whomever, will submit a request 
for a permit to the Commonwealth of Pennsylvania, the 
Pennsylvania Department of Environmental Protection. They 
screen it to see if it falls within that permit, if it is their 
responsibility for the permitting approval or if it comes to 
us. Generally speaking, it comes to us if it impacts more than 
250 linear feet of the stream or impacts more than 1 acre. We 
have tried really hard, worked very hard as we negotiated with 
the Commonwealth on this last permit to make sure that we had a 
pretty streamlined process and a fairly simple permit 
application process.
    Having said that, there is a fair amount of technical 
information that is required on the application permit, and if 
Mr. Good and his neighbors have made the decision to employ an 
engineering consultant, a professional dealing with--that this 
is what he does for a living, a professional engineer, that is 
probably a good step to get that permit expeditiously 
submitted. Our record since the programmatic general permit was 
enacted is, we are well under 60 days. Once a complete 
application is submitted to the State, we have a permit 
decision easily within 60 days has been our track record.
    So, sir, we are more than happy to work with Mr. Good and 
any of your constituents that would have concerns regarding the 
regulatory permit process. It is important, it is incumbent on 
all of us to make sure that we are operating transparently, 
that people know what the requirements are for a permit so that 
when they come to the State with that one permit application, 
it can be complete, they know the requirements and we can 
expeditiously act on it.
    Mr. Marino. I think I read perhaps in an article that a 
person is permitted or a township or a community or a county is 
permitted to clear their area but there is a 50-feet maximum. 
So they cannot go 50 feet beyond the conditions, beyond a 
bridge, beyond a bridge abutment or a structure so----
    Colonel Anderson. Sir, when a structure is built, when the 
permit is proffered for the construction of a structure, be it 
a pier, or in the case we are talking about most likely here is 
the dam, that permit typically comes with a 50-feet requirement 
so that the person, the organization or business or whomever 
that is granted that permit is responsible for maintaining the 
channels within 50 feet of the abutments. So the permit that 
constructs the bridge grants them that standing, not just 
authority but actually responsibility to maintain the channel. 
So if you go outside of that 50 feet, then that is where 
additional permitting requirements exist.
    Mr. Marino. Who issues that permit? Is it a Federal or a 
State permit that is issued?
    Colonel Anderson. It is issued either by the Commonwealth, 
if it is generally speaking less than 250 linear feet or less 
than an acre, and if it exceeds those thresholds, then it comes 
to the Federal Government. Again, this is the agreement under 
the Pennsylvania State Programmatic General Permit No. 4. We 
work very, very closely with PDEP as well as the Pittsburgh and 
Philly districts that also oversee the same permit.
    Mr. Marino. Does anyone else wish to comment on that issue 
that has been brought up?
    All right. Let us move to this. Homeowners, small 
businesses do not have the equipment nor the expertise to start 
removing gravel buildups from streams, start removing massive 
tree trunks and stumps from around bridges. Am I correct in 
saying that the rules say that it is the responsibility of the 
homeowner, the property owner to take care of those matters? 
Anyone?
    Mr. Brozena. Traditionally, that is a responsibility that 
falls to the local municipality. They should as part of their 
operations have an annual stream cleaning type of activity. 
However, unfortunately, with all of the other things that are 
tasked to local communities, that is one that rarely, if ever, 
gets addressed.
    Mr. Marino. What is the No. 1 remedy that we can execute 
that is responsible for a major portion of the flooding. Is it 
cleaning the streams out? Is it cleaning the debris that builds 
up around the bridges or is it something else? Anybody?
    Mr. Good. I can tell you from the standpoint of our 
business area, building supply, a dike from U.S. Route 6 to the 
railroad would be very, very welcome. It would certainly 
prevent future flooding. I mean, you have got an area there of 
about a quarter-mile. I don't believe it would be an 
extravagant expense, but that is out of my realm so I don't 
know for sure.
    Colonel Anderson. So Mr. Good, you know, has gone straight 
to the, I guess you would say traditional things we think about 
with flood control, which is structural, you know, build a dam, 
build a levee, build a flood wall, right, but some structure 
between the people and the water to allow us to go on with our 
livelihood and our lives as close to the water as possible. 
There are other authorities that do exist that we can utilize 
pretty quickly, and we have one called Planning Assistance to 
States. We have floodplain management services that the Corps 
has standing authorities in, depending on what the service is, 
low or no cost to the State or local government. We can assist 
with, you know, certain actions. Again, these are not 
structural events, structural solutions but it includes things 
like, you know, flood warning systems. It includes things like 
planning documents for responses. It includes mapping services. 
There is a number of things that we can do at the Corps, you 
know, at request of the local entity, a local municipality that 
can help. Again, these are not structural solutions but it is 
really looking at managing the floodplain.
    Mr. Marino. Is it true that if we build a levee system in 
one area or we put walls up in certain areas, it is going to 
have an effect on an area above and below?
    Colonel Anderson. That is absolutely correct, sir. When you 
constrain the water in a manner that is contrary to how Mother 
Nature had the water flowing is it going to impact--fluid 
mechanics dictate that it will impact other places.
    Mr. Marino. Now, Mr. Brozena stated that it is the 
responsibility of the municipality to clean the streams, to 
clean away the debris from bridges. What if the municipality 
doesn't have the money? Mr. Cannon, what do we do from the 
State level, and if the State doesn't have the money, Ms. 
Tierney, Colonel Anderson, what do we do from that aspect?
    Mr. Cannon. Actually, we had started looking at debris 
removal from the streams early on. DEP has been issuing 
literally hundreds of emergency permits to allow you to enter 
the stream as a municipal government and actually on many of 
our agriculture areas where farmers themselves needed a permit 
to enter into the stream and using their own resources cleaned 
the stream as it ran through their farms. We created a program 
with the State Department of Agriculture and our conservation 
districts. We thought it would be funded as an emergency 
protective measure. It was not able to be funded with those 
dollars. Therefore, we had no funds to be able to move that 
program forward.
    PennDOT as it relates to any State bridges will clean 50 
feet on either side of the bridge. We will do that without 
PennDOT resources when it is a State structure.
    We have now created a debris removal taskforce as part of 
our recovery effort trying to bring together anyone that has 
resources to be able to help local governments. You have a 
backhoe, you have got some dump trucks. You bring this in. We 
will do what we can to try to coordinate those resources. But 
it is piecemeal. There is not an overall program. We had 
developed a program but we weren't able to fund it with State 
dollars in our budget and we weren't able to get funding from 
the Federal Government either. So that program didn't move 
forward. It is a major issue but I do want to let you know that 
we are issuing emergency stream permits. I mean, I will speak 
to Mr. Good afterwards. I don't know why they are having 
trouble getting a permit. Again, we issued hundreds of permits 
to get into the stream. But it is a major issue in our entire 
region. There is no question about it. Streams that may at one 
time have been, you know, 8 feet wide are now 30 feet wide, I 
mean, so most of the time there is no water in them, and in a 
flooding situation, it just goes right over the banks. So it is 
significant issue, an issue that needs a funding source to be 
able to resolve it.
    Mr. Marino. Do we have the money at the Federal level 
within the Army Corps of Engineers and Homeland Security at 
FEMA to do what needs to be done not only in Pennsylvania? 
Because we are talking about flooding across the country. I do 
want to add that Homeland Security is just not focusing on 
flooding. We have had some disastrous fires out West too that 
we have to deal with. You don't want a guy like me running a 
bulldozer or a backhoe in a stream, believe me. You know, I 
just can't imagine that we want, I am going to say allow just a 
homeowner to get out there and, you know, rent a little backhoe 
and start moving things around. It is a pretty dangerous 
operation.
    Colonel Anderson. Sir, you asked the question about what is 
the status of our funding for activities related to response to 
emergencies. That is covered under Flood Control and Coastal 
Emergencies, FCCE account, and as you just mentioned, between 
tornados, fires, flooding on the Missouri, flooding on the 
Mississippi and then tropical storm and hurricane out there, 
that account is very strained right now. So there has been 
reprogramming actions around the Nation to try to get funding 
at the right places in the Nation that need it, and that 
account needs to be refreshed via, I believe, a supplemental 
appropriation in order to get us the funding we need to support 
those types of activities.
    Now, those type of activities for us is rehabilitation of 
flood control projects, not, you know, removal of debris from 
streams. So, you know, those are to actually take a project, 
for example, at Wilkes-Barre/Forty Fort area where you 
personally witnessed the cracking of the wall and we would go 
through a formal process to identify the problem, to scope an 
engineering and design and then to get construction funding to 
repair that and rehabilitate it so it is ready for the next 
season.
    Mr. Marino. My last question and then I will turn it over 
to the Chairman, what do we do about eliminating or curtailing 
the regulation that we have to go through, that a typical small 
business owner or homeowner has to go through to secure these 
permits and do what has to be done? Because I know that--I see 
the regulations with the EPA. I see some lesser regulation with 
DEP. How do we make this more constituent-friendly?
    Colonel Anderson. Sir, we just finished negotiating the new 
permit with Pennsylvania, and a lot of the focus was on how do 
we do that, how do we let industries and individuals and 
commercial interests and municipalities, how do we make them 
aware of what the requirements are to submit a complete permit 
action so that once it is submitted, the information is 
available, we can act on it quickly? We have begun some 
training on the new permit with local industries. We have had 
our first training with industry, I believe one in Philadelphia 
and one in central Pennsylvania, and we are going to continue 
those so that folks know what the permit application 
requirements are.
    With respect to what can be done to reduce--to make it--to 
lessen it, I mean, we believe that we are--the intent of the 
regulatory program is to meet our obligations under the Clean 
Water Act and the Rivers and Harbors Act, and we understand we 
need to do that as transparently and as efficiently as we 
possibly can.
    Mr. Marino. All right. Chairman, I yield back.
    Mr. Bilirakis. Thank you, Mr. Marino.
    I have a couple questions, the first one for Mr. Cannon. I 
am pleased you discussed the continued need for individual and 
community preparedness. Of course, we are in agreement. I am 
sure Mr. Marino is as well. I believe efforts like Ready.gov 
and Ready PA can be so important because taking steps in 
advance of a disaster can make all the difference when the 
disaster strikes. As a matter of fact, Mr. Good said we would 
save money in the long run if we did the proper mitigation. As 
Administrator Fugate has stressed, it really does take the 
whole community, and I agree, to develop effective preparedness 
and response to natural disasters. Unfortunately, people don't 
always heed the call to prepare. We must continue to work to 
develop a culture of preparedness.
    My question is: What more can we do on this front and how 
can this subcommittee be of assistance? First to Mr. Cannon and 
anyone else who would like to comment, I would appreciate that 
as well.
    Mr. Cannon. Yes, sir. Absolutely, we need to develop across 
our country a culture of preparedness. For these two storm 
events, first, before Hurricane Irene made landfall, and 
second, when the Lee remnants began flooding, the first storm, 
we had over 1,500 Pennsylvania National Guard troops on station 
in their armories with their Humvees, their high-water 
vehicles, food, water, medical supplies ready to go out. The 
second storm, we had over 1,800. We have a philosophy of 
responding to these events called leaning forward. If you wait 
until the event has occurred, you have lost already. So 
preparedness is part of that leaning forward to be ready, and 
it goes back to, to embrace the entire community is that 
everyone that has a role down to the individual must be 
involved in that preparedness.
    We have been talking about floods. A few weeks ago, we had 
a major snowstorm that was very unexpected in the Northeast 
that early. Back in August, I think it was, we had an 
earthquake tremor that for people in this part of the country 
they are not used to that at all. When these events occur, it 
oftentimes is beyond the capability of the emergency response 
force to get there immediately. So it is necessary that people 
prepare for their families, their neighborhoods and their 
community. If you look at those tornados in Joplin, Missouri, 
the first people that came out to help rescue were their 
neighbors, people helping people. We now don't call them 
victims any longer; we call them survivors, survivors who come 
out and respond.
    So it is very important that people take some 
responsibility. We talk about a 72-hour window of having some 
food, supplies, medicine, things that you would need in the 
event that you or your family or your community were cut off 
because of the nature of the event. Even to the point of losing 
power, do people realize if you have canned goods, you can't 
use your electric can opener once you have lost that power? Do 
you have water enough for everybody there? So it starts at the 
very local, home level in terms of preparedness, and the more 
we can get people to prepare and the more we can get our 
country to think about people assuming some of these 
responsibilities themselves, the better we will be when each of 
these events happen because people have taken the necessary 
steps.
    The other thing is that people need to accept the guidance. 
You know, it would be better to evacuate folks nine times and 
when it turns out they could have stayed in place then that 
tenth time when they didn't evacuate. I was at FEMA when 
Hurricane Ike came across Galveston and up into the Houston 
ship channel. There were people there that were absolutely told 
by the National Hurricane Center, if you stay there, you will 
die, and that whole community was washed out to sea and those 
people died because they chose not to heed that advice. So it 
is very important that people prepare and listen to the 
warnings and realize that their Government can't do everything 
immediately. It takes a little bit of time.
    Mr. Bilirakis. Thank you very much, Mr. Cannon.
    Ms. Wenner, I think you want to comment. What can we do? 
What can Congressman Marino do? What can I do? Any suggestions 
on how we can be helpful as a subcommittee, as individual 
Members of Congress? Public awareness? Do you have any 
suggestions?
    Ms. Wenner. I think I agree with Mr. Cannon wholeheartedly. 
The Red Cross works closely with our Government partners in 
preparedness in our communities. I think it is important, 
educational process to engauge our schools in preparedness and 
educate children to bring home this and have their families 
prepared. I think it is really important that we provide 
education in our businesses in our community and engauge groups 
of people to work together in times of disaster. Japan has a 
wonderful program where they have community responses to 
disasters--where they train as communities to know what to do 
ahead of disasters. That is the mindset that we need to have in 
this country throughout our communities is to be prepared for 
the inevitable of any disaster happening. People need to 
understand, you know, to get resources into areas that have 
been impacted by disasters takes time and that time that they 
have those resources, that the community has those resources 
and they are prepared to deal with it on their own is critical 
to saving livings in communities.
    I worked in Joplin. I was there the day after the tornado. 
Those people in Joplin were prepared for tornados. They knew 
what to do. They knew where to go. It made that operation so 
much more comprehensive and the people cooperating and the 
agencies all working together to rebuild that community. You 
can see the schools opened up within months of absolutely being 
destroyed there. We need to mirror that across the country, to 
have resilient communities across the Nation that are able to 
bounce back quicker after disasters happen, and that all lies 
in the preparedness before they happen.
    Mr. Bilirakis. Thank you very much.
    Administrator Tierney, yes, please, you are recognized.
    Mrs. Tierney. Thank you. Just to add to what the director, 
Director Cannon, was speaking about, creating a culture of 
preparedness in the United States is not something that is 
going to happen overnight. If you think about the campaign to 
eliminate drunk driving or for people to wear seatbelts, it was 
a generational change in some respects, and I think with 
preparedness, we are facing the same type of challenge. So 
keeping the preparedness message on the forefront of the 
National dialog is critical to ensuring that that generational 
change occurs. I am certain that in 5 or 10 years we will be 
having a much different conversation about preparedness, or at 
least I hope we are, than we are now, which is, you know: How 
do we move people to action?
    One of the ways that I like to communicate to people about 
moving themselves to action is that preparedness is not an 
overwhelming task. These are very simple, practical, basic 
things that you can do. You don't have to do them all at once. 
You can do a little bit each week or each day. For example, 
building a home emergency supply kit. It is not an overwhelming 
task where you need to go to the grocery store and buy this 
enormous amount of supplies. In many cases, people have the 
supplies for a home emergency supply kit already in their home. 
It is a matter of taking those supplies and assembling them in 
one place and periodically checking them to ensure that they 
are fresh and available for use in an emergency. The same thing 
with developing a family emergency plan. There are many steps 
involved in developing a family emergency plan but you don't 
have to do them all in one night. You could, you know, say, on 
a Monday select a meeting place. On Tuesday, identify your out-
of-state contact. On Wednesday, practice your plan. So I think 
part of this is making it more accessible and reachable for 
people as opposed to a very daunting activity that then just 
ends up at the bottom of the pile of things that they need to 
do every day in their life.
    Mr. Bilirakis. Very good.
    Anyone else? Would you like to answer, Mr. Cannon?
    Mr. Cannon. Just another comment for the committee.
    Mr. Bilirakis. Sure.
    Mr. Cannon. Since 9/11, we have built a tremendous capacity 
and capability in our country to respond to these events, and 
for a while, from 2001 until 2005, it was kind of focused on 
terrorists and everybody and every dollar went to anti-
terrorism programs. After Katrina, it was recognized that we 
need to prepare for all hazards that might affect the homeland, 
not just a terrorist, and those dollars that went to fund those 
programs were allowed to be used for both all-hazard disaster 
response, emergency response, and anti-terrorism response. So 
from 2005 until now, that is what has happened, whether it was 
Joplin where they didn't need any outside rescue teams because 
they had enough capacity and capability built in, ice storms in 
Tennessee, tornados in Alabama, floods in Pennsylvania, we have 
been able to use the equipment and the resources that were 
purchased with those Homeland Security dollars that were 
legally able to be used for both purposes.
    Last year, the States were cut 50 percent in their homeland 
security budgets. This year, it looks like it will be 59 
percent, but because of the on-going situation and the C.R.'s, 
we are not sure how much money we are going to get in 
Pennsylvania. What will happen is--maybe you will remember 
this. There was a time when buildings had civil defense 
hospitals in their basements and they were abandoned in place, 
those shelters and those hospitals and those supplies. We have 
built Nationally a tremendous capability and capacity to 
respond to disasters regardless of their cause, and without 
this funding, there is no way to sustain those programs. So it 
is my sincere hope that the committee will look at what is 
happening as it relates to the funding of the State Homeland 
Security Grant program and the Emergency Management Grant 
program because as I--I belong to an organization called NEMA, 
the National Emergency Managers Association. As I go to those 
meetings and we talk as State directors, every one of us 
recognizes that we have been able to respond to these 
disasters. In Pennsylvania, for the flooding, we brought 23 
swift-water rescue teams from the western side of our State and 
they saved lives. We brought USAR teams here because our 
Federal USAR team went to New Jersey and then New York, but our 
State element was prestaged and went out. We had ambulances 
prestaged that we sent 50 ambulances to New Jersey the day 
before Irene to evacuate hospitals on the coast and then 
brought them back to Pennsylvania. Those resources were 
purchased and trained and exercised as a result of the Homeland 
Security Grant program.
    So with that point, when you ask what could the committee 
do, that is a pretty strong point. Thank you, sir.
    Mr. Bilirakis. Thank you very much. Point well taken. Good 
input.
    I have a question for Ms. Wenner. As I noted in my opening 
statement, the subcommittee held a hearing last month to assess 
FEMA's progress since the passage of the Post-Katrina Emergency 
Management Reform Act. From what I have seen, FEMA has made 
great strides over the past 5 years. I said that in my opening 
statement. You have had a long career with the Red Cross and 
have responded to countless disasters, and thank you for your 
extraordinary work. I am interested in your perspective on 
working with FEMA. Have you seen improvements in FEMA's 
response capabilities?
    Ms. Wenner. Absolutely. Over the years, the Red Cross and 
FEMA actually post-Katrina have worked hand-in-hand to manager 
disasters. The sharing of information in the past 5 years has 
been increased ten-fold. We staff the Emergency Operations 
Center with a Government liaison person so that we can have 
that seamless communication between what the Government is 
doing and what the Red Cross is doing, because as we all stated 
before, you know, it takes an entire community, an organization 
to share resources to serve people after disasters. So I would 
say our relationship with FEMA has improved and constantly we 
are evaluating and assessing how we can work closer with our 
Government partners. People don't care when they are affected 
by a disaster who is handing them the ready-to-eat meal or who 
is opening the shelter. All they care is that it is there and 
it is provided for them. So it is really important for us as an 
organization, for the Red Cross to work not only with our 
Government partners but our non-Government partners and or 
other VOAD organizations. So yes, I think across the board all 
the relationships have been built pretty strongly and have 
progressed in a positive direction.
    Mr. Bilirakis. Anyone else wish to comment on that, on 
FEMA's responsibility capabilities? Have you seen an 
improvement? Anyone else on the panel? Yes, sir.
    Mr. Cannon. Having worked there and now being a customer of 
theirs, we have seen great improvement since the Post-Katrina 
Reform Act was passed. You know, I think that after the 
creation of the Department of Homeland Security, much of FEMA's 
identity was taken, moved, dollars went to DHS rather than 
staying at FEMA. The Post-Katrina Act kind of refocused on its 
mission, and they have certainly become more attentive, more 
focused, and understand that if you are going to make a 
difference in saving lives, then you have to involve yourself 
early on. As I have heard Administrator Fugate say, go big, go 
fast. If we don't react that way to these disasters, then life-
saving missions become body recovery missions. They have turned 
the corner, and I am very proud to have been a part of that, 
and I am very pleased with the work they have done with 
Pennsylvania.
    Mr. Bilirakis. Very good. Thank you.
    Does anyone else wish to comment on FEMA? Okay. My final 
question is to Administrator Tierney. You mention in your 
written statement that FEMA in conjunction with State and local 
partners completed Preliminary Damage Assessments in 39 
Pennsylvania counties in a little over a month. Who 
participates in these PDAs, the teams, and how are these 
assessments scheduled? How is information shared with the teams 
to ensure that you have the most complete information? You are 
recognized.
    Mrs. Tierney. Thank you. In FEMA Region 3, we have a 
standard operating procedure for conducting Preliminary Damage 
Assessments so pre-event, actually over this summer we spent a 
considerable amount of time walking through the process for 
conducting PDAs to ensure we were doing them in the most 
efficient and expeditious manner. We were able to implement 
that PDA SOP during the Hurricane Irene and Tropical Storm Lee 
responses. PDA teams are primarily made up of FEMA Region 3 
staff coupled with staff from the Commonwealth and the affected 
county. It is important that PDAs be done jointly so that we 
see the same picture at the same time and can compare and 
contrast notes. The PDA team could also include other Federal 
agencies such as the Army Corps or Housing and Urban 
Development. Typically, our PDA teams also include the Small 
Business Administration. This helps expedite any requests that 
a Governor may make independent of a major disaster declaration 
for SBA loans to be issued, activated within the State.
    So basically there is a team leader. The team leader 
coordinates with the Commonwealth and the county. Based on the 
county coordinator--in the case of the Commonwealth, each 
county has a county emergency management coordinator. The 
county emergency management coordinator identifies areas that 
they would like the PDA team to view. The PDA team reviews 
those throughout the day. They caucus at the end of the day to 
compare notes and then a situation report is provided to me and 
to the Commonwealth.
    Mr. Bilirakis. Thank you.
    All right. Now I would like to recognize Mr. Marino for as 
much as time as he would like to consume.
    Mr. Marino. First, I failed to thank the security people 
here, the college security people and the Pennsylvania State 
Police for being here, helping us with security. I greatly 
appreciate that.
    I have about a thousand questions, and we don't have the 
time. If you would, think about this when you leave and get 
back to me in writing, and it doesn't have to be a thesis, what 
you individually, what your agency individually could do to 
streamline the system by which we permit, by which we ask for 
help and by which we respond. If you could just zero in on one 
area in your agency that if financing were not an issue, what 
we could do to become more efficient and become more proactive. 
That is it, what can do to become more proactive. Make it 
simple, okay?
    Ms. Wenner, I had the opportunity to spend some time with 
your volunteers in the mobile kitchens. They were incredible. I 
think these people were just from the Deep South that came up, 
many of them from faith-based organizations. What can we do to 
enable your organization to get those mobile kitchens out 
faster?
    Ms. Wenner. We get our feeding out as fast as we possibly 
can.
    Mr. Marino. But how can we help you?
    Ms. Wenner. How can you help us?
    Mr. Marino. Yes.
    Ms. Wenner. Open the roads faster? You know, it is always a 
challenge after disasters getting the resources needed in a 
timely manner. I think, you know, it is a problem we are going 
to constantly struggle with because we don't know what we are 
facing, we don't know what the conditions are immediately after 
a disaster. Usually communications are, you know, down. So I 
really don't know how you could do any better than we do it 
right now.
    Mr. Marino. Are you in the loop quick enough? Are you 
notified quickly enough----
    Ms. Wenner. Yes, absolutely. As I said before, we are 
staffed at the EOC, and we have as timely information as we 
possibly can get from our Government partners. We work hand-in-
hand with our Government partners in getting that information 
and getting our resources out as fast as possible.
    Mr. Marino. Thank you.
    I think it was Director Cannon, did you state that there 
was a manual put together, or was that at the Federal level and 
we just didn't follow through with it, a 101 manual, I think it 
was referred to? Mr. Brozena.
    Mr. Brozena. That is the concern that we have is that 
immediately following an event, and traditionally, major flood 
events don't happen all that often so you traditionally have 
someone who has never gone through a flood event before, does 
not know what to do. So while there are lots and lots of 
publications from FEMA that tell you things that you can't do, 
there is not one comprehensive document that says immediately 
do this. The prime example that I speak to is that people who 
live in special flood hazard areas are supposed to put their 
properties back together so that they would now be in 
compliance with the floodplain ordinance. The problem we have 
is that in lots of communities, they don't even know that they 
have a floodplain coordinator. So it is that type of thing, 
that type of information that allows them to go down a 
checklist so that they can provide correct responses to 
residences as they put their houses back together so that they 
don't do it incorrectly and put themselves at risk again.
    Second, it allows all of the information to be made 
available as quickly as possible because I live in West 
Pittston, my house was flooded, and the borough officials 
attempted that weekend to have a meeting, and everyone turned 
out and the borough attempted to ask questions, and all they 
ended up with was a bunch of frustrated flooded property owners 
because they didn't have all the answers.
    Mr. Marino. Can FEMA put together a succinct, easy-to-read 
manual where you don't have to be a Ph.D. to educate we at the 
local levels on procedures?
    Mrs. Tierney. I don't see why we can't do that. I am 
certainly going to take that back and discuss that with the 
regional mitigation staff.
    Mr. Marino. Would you mind working with me personally on 
that project? I know it is not something that is going to be 
done in the next 2 months, and what I would like to do is, if 
FEMA was to prepare something, maybe PEMA could put some 
thoughts down, maybe we could get some representatives from the 
counties, the emergency service and put some thoughts down, get 
that information back to myself or Mrs. Tierney, and we can 
start compiling a how-to book that we go to. I mean, there are 
enough manuals in Washington that they could be skyscrapers if 
they were stacked but nobody reads them because they are all 3 
feet thick and you need a couple of degrees to determine what 
they are saying. But we can do this. We can apply common sense 
here and put together a how-to manual, a quick reference that 
we can go to. So I would enjoy working with you on that, and 
Mrs. Tierney, if we can work something out.
    Mrs. Tierney. We would be happy to do that. Anything that 
makes the process easier for people makes everybody better off. 
So certainly a checklist of some sort, that is what it sounds 
like the gentleman from Luzerne would like. I am certainly open 
to doing that. It sounds like it makes sense.
    Mr. Marino. Here is another request I have of you people 
sitting here on the panel, and you have been excellent, believe 
me. I have learned a great deal of what you are going through. 
Is there a possibility that if I can get all my emergency 
services people together in the county, which I have 14 
counties in my district, could you individuals or your 
representatives, if we far enough in advance had a meeting, had 
a little luncheon where we all could sit down and discuss the 
issues that we are faced within the 10th Congressional district 
and get some advice from you and perhaps we could give you some 
suggestions, a little seminar, a learning lesson. From being in 
industry until I was 30, I found the best way to build a 
factory is not only have the engineers and the architects but 
have the people who run the equipment there also. Is that 
possible to do? I mean, would you all be willing to do that or 
go back and ask your superiors if that is possible? I will have 
my office contact you individuals and maybe we can set this up, 
because I really would like to have my county coordinators 
sitting at the table with you folks because we have a lot of 
information that we can exchange.
    I was in Forkston last night, and I know some of my 
constituents are here, and one of the issues is the rerouting 
of streams because of the flooding, and the rerouting of these 
streams, if we get a rain with a couple of inches, these people 
are going to get hit again. What can we do now, what can we do 
starting tomorrow to prevent this? Colonel, I am sorry, but I 
am going to go to you first.
    Colonel Anderson. Again, going back to my previous 
response, the traditional way of getting a flood control 
structure, a structural solution to reducing risk is proving 
very expensive and long to take care of it, I think it is fair 
to say. We have capabilities that we can provide, standing 
authorities at the request of a local community to help with, 
you know, floodplain mapping, emergency warning systems, things 
like that, the non-structural things we need to consider. But 
if folks have located their property in a floodplain, that is 
more problematic in terms of getting them--you know, protecting 
or reducing risks for those folks. It is the non-structural 
things that we can do very quickly at very little or no cost to 
the local community.
    Mr. Marino. So I have this straight for the people 
listening, I live--when I was a kid in Williamsport, a young 
kid--I emphasize the word ``young'', when Agnes came by--I saw 
what my family went through. My dad was a fireman and I saw 
where he had to go and what he had to do. It is devastating. So 
in order to help mitigate the damage, is the first procedure 
the homeowner gets with their municipality, their township 
supervisors and says look, here is a problem here behind my 
property and the rocks have washed off the mountain and they 
need removed. Okay. Now, the township supervisors invariably 
are going to say we don't have the money to do this. So the 
next step for the township supervisor is what then? To go to 
the county level? I mean, we have got to go through this 
hierarchy, I imagine, and if the county says I don't have the 
money and they go to the State and ultimately the State is 
going to go to FEMA, is that the cumbersome procedure that 
these people have to go through?
    Mr. Cannon. If they want to--if they have been repeatedly 
flooded, then as part of our mitigation program, we will move 
people out of that area. Now, once you move out of that area, 
that property cannot be developed, and because title then falls 
back to the local municipality for that property, so were 
exactly right in the beginning part. When people want to be 
brought out, they must go to their local municipality because 
they are the ones that actually submit their request to us for 
the buyouts.
    Mr. Marino. Who determines if they are going to be bought 
out then?
    Mr. Cannon. Well, there is actually a committee that sits 
at the State level that is made up of a number of State 
agencies that review those requests and make that determination 
and then we submit them to FEMA, and ultimately the end result 
is FEMA. We have probably removed about 1,400 homes since Agnes 
and 3,500 people away from those flooded areas. The amount of 
mitigation money we get to do this with is based on the size of 
the disaster, and you don't know that until the end of--but we 
are already taking the applications and we are already holding 
the meetings much faster than it has ever been done before in 
communities as it relates to mitigation.
    Mr. Marino. I can attest to that for sure.
    Mr. Cannon. So--and exactly. If we can move the homes out 
of the flood areas, then we eliminate the risk of those people 
being flooded.
    Now, there are some issues that come up in municipal 
governments. They don't want to lose the tax base for a number 
of those people so they hopefully find another place to 
relocate them within that municipality. But we are looking at 
primarily getting the people out of those areas and getting 
them bought out in what is done through an appraisal system of 
pre-flood values of their homes. It is not certainly a flooded 
home that gets evaluated.
    Mr. Marino. Does this hold true for businesses as well?
    Mr. Cannon. It does hold true for small businesses, yes.
    Mr. Marino. I am going to play devil's advocate here for a 
moment. Now, correct me if I'm wrong, but if someone refuses to 
move, we cannot continue to--we will not have the funds to keep 
rebuilding. Is that person then living in that particular spot 
at peril, at their own loss, Mr. Cannon?
    Mr. Cannon. I don't think that we can force people to move 
from that area but there is an issue there with flood 
insurance. MaryAnn, are you familiar with that?
    Mrs. Tierney. Yes. There are currently about 41,000 homes 
that were registered with the NFIP, the National Flood 
Insurance Program. To date, we have paid out about 9,332 
claims, about $127 million. Depending on the location of the 
home and the severity of the flooding, whether or not they are 
in a special flood hazard area, that is going to dictate kind 
of the long-term consequences to that property. I would be 
happy to get back to you with more specific information about 
the NFIP. Obviously, as you know, it is a very complicated 
program. I wouldn't want to speak out of turn on what would 
happen with a particular home.
    There are a variety of categorizations of homes. For 
example, there are homes that have been flooded several times. 
They are something called a severe repetitive loss list. Those 
homes in acquisition receive priority for acquisition if the 
benefit-cost analysis works out in their favor. So if you would 
like, I could provide more detailed information or a briefing 
to go through that with you.
    Mr. Marino. A homeowner applies with FEMA for this or does 
it go through the State first?
    Mr. Cannon. It goes through the State first, and then we 
forward them on to FEMA, who makes the final call.
    Mr. Marino. Mr. Brozena.
    Mr. Brozena. Mr. Marino, we seem to be talking about three 
things at once here, and it got away from your original 
question, which is, all of a sudden the stream is not where it 
used to be, it is now in a new location and someone is at risk. 
The issue comes down to that the definition of emergency 
protective measures of FEMA does not allow actions to be taken 
to relocate that stream back to where it should be and put it 
in to pre-flood condition. That is the major issue.
    Mr. Marino. Colonel.
    Colonel Anderson. To add a fourth one in there, Jim, the 
Pennsylvania State Programmatic General Permit that we just put 
in place does indicate that--you asked what we can do to be 
more proactive. As an example, activities, where the stream has 
left its channel as a result of a recent storm event, channel 
work is authorized to restore the stream flow to pre-storm 
conditions under emergency permit application process with 
PDEP, which is less--more streamlined, less onerous.
    Mr. Marino. Who does this? Who is responsible then for----
    Colonel Anderson. An emergency permit, using emergency 
permitting processes, again, with this State programmatic 
general permit, to restore the channel to its original----
    Mr. Marino. Pre-storm route. So again, we started a process 
with the local government, the township, the city, the county. 
We go that route.
    Colonel Anderson. Yes, sir.
    Mr. Marino. But we can, there is a method by which we can 
hopefully get that stream back to pre-flood conditions.
    Colonel Anderson. From a regulatory permitting aspect, yes, 
sir.
    Mr. Marino. Do we have to do something legislatively in 
Congress or is the regulation there?
    Colonel Anderson. No, sir. This is a programmatic permit 
between the State and the Corps of Engineers for how our 
regulatory requirements would be executed. No further 
legislative action is required.
    Mr. Marino. Okay. What do we do to improve the warning 
system, whether it is from the locals to the Federal Government 
or from the Federal Government down to the locals? How can we 
make that more efficient and more effective?
    Colonel Anderson. Sir, if I could take that. We need full 
appropriations for our mitigation components of our projects. 
Mr. Brozena mentioned that unfortunately the project wasn't 
complete at Wyoming Valley, although it just prevented, you 
know, $3 billion or $4 billion of damage. The incomplete 
portion he is talking about is the mitigation piece. Going back 
to your previous question, do our projects create other 
conditions in the river?--yes, they do, and in recognition of 
that phenomenon of fluid mechanics, our projects include a 
component for mitigation, to mitigate the deleterious impacts 
that our projects may have in unprotected areas. For the 
Wyoming Valley project, for example, we ended up with $37 
million of funding. A couple components of the project were 
actually removed because they weren't permittable or no longer 
required. We still are awaiting full appropriations to enact 
the mitigation pieces of that. There are 53 communities that 
are eligible. Fifty-three communities are eligible and they 
have some up with something like 660 potential projects that 
they submit to the Luzerne County Flood Protection Authority 
and Mr. Brozena's leadership and once those projects have been 
selected that are the most effective, they come to the Corps 
for reimbursement based on a 75/25 Federal/local cost share. To 
date, we haven't received full appropriations for that, and 
that would certainly help us enact some things like flood 
warning systems.
    Mr. Marino. Do we have to evaluate our floodplain not only 
here in the 10th Congressional District or Pennsylvania but 
across the country? Because I was at one area where there was a 
mobile home park less than 50 yards from what looked like--it 
was a stream but when I was there standing on the banks, it 
looked like a raging river. The information that I was able to 
collect was, it was okay to put that mobile home park there 
because it was 2 feet above the floodplain. Now, we seem to 
have left common sense out in the backyard when we are that 
close to a stream and say oh, you know, we are 2 feet away from 
it. I am not one to promote regulation but do we need to 
tighten this up?
    Mrs. Tierney. You have certainly ventured into an area that 
is new territory for me. I am not an NFIP expert. I can speak 
specifically to some of the things in Pennsylvania. For 
example, in Lackawanna County, our maps, the re-study for the 
floodplain was recently completed and our maps are preliminary. 
They will go effective in less than a year. There has been a 
lot of work Nationally to digitize the flood insurance rate 
maps and to redo the flood studies. As I am sure you are aware, 
there has been a lot of local, State, and National discussion 
about that. I would be happy to provide or have, frankly, 
people in FEMA headquarters in Washington, DC, provide 
additional detailed information about your request, but I am 
certainly not in a position to dive into the nitty-gritty of 
the NFIP.
    Mr. Marino. Who is responsible for determining the 
floodplain? What Government entity? Is it locals or the Federal 
Government?
    Mrs. Tierney. It is FEMA through the National Flood 
Insurance Program through the issuance of flood insurance rate 
maps. Those determine the flood plain, both the 100- and 500-
year and the special flood hazard areas.
    Mr. Marino. Okay.
    Mr. Brozena. Let me just add a little bit more about the 
map modernization program. Luzerne County is going through that 
currently. There have been new preliminary maps issued in 2009. 
They have not have gone final. But one of the difficulties with 
the new maps is that we are using old data. Of the more than 
800 miles of streams and rivers in Luzerne County, we only did 
new studies on less than 10 percent of those. So we are using 
data that probably dates back to the 1970s, and if there is one 
thing that we probably should do, especially in light of the 
events since 2004, 2005, and 2006 on the Susquehanna River is 
that we should do a comprehensive review of the Susquehanna 
River Basin to take a look and see what the floodplains really 
are. We have been playing catch-up since the 1970s because of 
development that has occurred throughout the watershed, and I 
am not sure that we have an accurate depiction of what is going 
on out there.
    Mr. Marino. The gauge that maxed out--I am going to use 
that term--we had no idea that it maxed out until after the 
disaster?
    Mr. Brozena. No. We had no idea what the limitations and 
the operating limits of the gauge were. However, the repair 
that we were doing in Forty Fort on Thursday evening, they 
brought pictures back and they showed me them and I asked what 
the dots on the wall were, and they told me that is where the 
water was, and I told them it better not because we don't have 
enough wall left based on where the river is at right now. So 
it was at that point that we then went out and gathered some 
on-the-ground information to make a determination as to what 
the river reading really was and then address the plan from 
that point forward.
    Mr. Marino. Do we need a better system? Is there a state-
of-the-art system out there to determine this or is it simply 
the gauge did what it was supposed to do but it got to its top 
point and that was it?
    Mr. Brozena. Well, to USGS's credit, they recognized the 
situation, and within 30 days, a new gauge has been installed 
and in place. So that is good. The problem is, is that the 
annual funding component for the Susquehanna River Basin gauges 
is about $2.4 million, has a benefit-cost ratio of 20:1 and we 
struggle annually to find the dollars to do that, and that is 
how we come up with accurate river forecasts, and it makes it 
very difficult as we use less and less data as more and more 
areas become more populated.
    Mr. Marino. Okay. I am getting to the point where I am 
concluding now. Could each one of you take a moment and think 
about what your agency would do over the next time we have a 
flood? What would you do differently? You did so much that was 
good, and I really, truly mean that. I have seen it. I was on 
the ground out there. You prevented loss of life, the loss of 
more property and personal effects. But the next time we have a 
flood--and we are going to--what do we do to mitigate our 
losses? Mrs. Tierney.
    Mrs. Tierney. Thank you. As I mentioned in my oral 
statement, one of the things that we would do differently in 
FEMA Region 3 is--and this would be regardless of whether the 
incident was a flood or a tornado or other type of emergency or 
disaster--is with our Incident Management Assistance Team, we 
will assist a full-time employee to handle mission assignments 
with the IMAT collocated in the State's or Commonwealth's EOC. 
We think this will significantly compress the time by which we 
can mission assign agencies and enhance coordination between 
the IMAT operation occurring in the EOC and our regional 
response coordination center operation.
    Mr. Marino. Colonel, could you respond to that, please?
    Colonel Anderson. Sir, there is two sets of answers to 
this. One is if we weren't in resource-constrained environment 
and one is if we are. So if we weren't in a resource-
constrained environment, I would love to finish out all the 
mitigation at Wyoming Valley. I would love to get flood 
protection to places where it has already been authorized like 
Bloomsburg. I would love to get, you know, max protection done. 
But we live in a resource-constrained environment.
    So there are other things that the Corps can do now to help 
prepare, and those are those floodplain management sources, 
planning assistance to States. I would like to get with some of 
the communities that have these concerns and just make sure 
they know what is at their disposal at the Federal level, 
again, for little or no cost, to help them with some of these 
challenges that they face. We do have a toolkit we can use. It 
is non-structural, pretty quick and inexpensive. If I had it to 
do over again, I would probably be back at these communities 
and making sure that they know about them and how to request 
them.
    Mr. Marino. Director.
    Mr. Cannon. We continue to review everything we did during 
these events. A number of the things that were done were done 
for the first time ever in Pennsylvania. A number of the things 
we did happened faster than they ever happened before in 
Pennsylvania. But in these events for the people that suffered, 
nothing is fast enough, and so we will continue to review every 
single thing we have done, every action we have taken to see 
where we can improve on the performance that we had.
    The thorny issue, and you both touched on it and discussed 
it, is the issue of the debris removal in the streams where no 
one seems to have the responsibility or the funds to be able to 
deal with that issue. So we will----
    Mr. Marino. Could I stop you there for moment, sir?
    Mr. Cannon. Yes.
    Mr. Marino. Excuse me. Who has jurisdiction? Who really has 
the jurisdiction to get in and reroute those streams and clean 
them out beyond 50 feet?
    Mr. Cannon. We work--you know, I would have to get back to 
you with the answer to that. That is what I said, we don't know 
who has--different people have different responsibilities. We 
thought if we facilitated permits to enter the streams--
because, remember, there are other people at the same time that 
don't want us to enter the streams.
    Mr. Marino. Sure.
    Mr. Cannon. And----
    Mr. Marino. Those are the people that haven't been flooded.
    Mr. Cannon. They haven't been. Then there are other 
agencies that we have to make sure that they are on-board with 
the program.
    Mr. Marino. Listen, I am a conservationist. I want to 
protect the environment. I live out in the country. I want my 
water protected. I love to see the bear and the deer come 
through the yard. But I have a little problem when someone says 
that a particular rock or a plant or toad could be in danger 
relative to somebody losing their house, their personal 
effects, and someone from their family. You know where my 
precedent is going to go on that one.
    Mr. Cannon. Well, and that is why we have been issuing the 
permits to get into the streams.
    Mr. Marino. Thank you.
    Mr. Cannon. But the scope of the issue is so large, it is 
my belief that it will take a Federal response to be able to 
deal with it. It takes a program that large and it takes a 
program that needs to be funded, because we see this--it is a 
recurring issue every time there is a flood.
    Mr. Marino. Thank you, sir.
    Ms. Wenner.
    Ms. Wenner. We have a meeting tomorrow in Harrisburg, the 
Pennsylvania State Red Cross, to evaluate our disaster 
response, but I can tell you the two things that I know ahead 
of time which are going to come out of this meeting, and one 
thing is that we need more trained local volunteers prior to 
the event throughout the area. We bring in our resources from 
all over the country to support--we brought in 1,800 volunteers 
we had on the ground here. That costs us time and that costs us 
money that, you know, we are in tight constraints like everyone 
else, and if we had trained volunteers here ready to respond, 
it would be savings in time and in money. We also need to 
strategically place our supplies in areas that we have assessed 
that have the greater needs for a quicker response too because 
bringing in supplies as bringing in people is costly and time-
consuming. So those are two things that I definitely know are 
going to come out of that meeting tomorrow.
    Mr. Marino. Thank you.
    Mr. Brozena.
    Mr. Brozena. Well, it is interesting. I was just going to 
say, I was going to steal the Red Cross's page because when you 
look at who responds to these types of events from the Federal 
level on down, it is an employee, it is an employee, it is an 
employee, and then finally when you get to the local level, it 
is volunteers that we have at the county level and especially 
at the municipal level. Again, we need to do--so we need to 
recruit volunteers, and there are lots of talents out there 
that have gone untapped that we somehow need to get them to 
become involved in their community in some way.
    The second thing is, is that it is great to have a 
volunteer but it is better to have a trained volunteer, and 
maybe that is one of the focus things that the agencies should 
look on is to develop means to provide us with tools that we 
can, when we do our exercises, train people so that we are not 
doing it as the river is rising, I am out there teaching 
someone what they should be looking for.
    Mr. Marino. I guess it gets back to, I am going back to my 
18 years as prosecutor. It gets started at some point. The 
warning needs to come from the technology that the Federal 
Government has but the front line, the front-line operations, 
people in the community, the emergency service people, and the 
volunteers. No one knows more so what is going to happen. There 
was a gentleman, 84 years old, who was standing at one place 
and someone made a comment about when this is going to crest. 
He said he learned over the years, over the 84 years, he called 
that crest within a half a foot. Amazing.
    Mr. Good, what would you like to see us do, Congress do, 
the Government do?
    Mr. Good. I was sitting here trying to think what all the 
different comments and so forth, what could come out of that, 
but I fear that in today's economy, the lack of available funds 
is a huge problem.
    Mr. Marino. Perfect segue. I have been in Congress for 
almost 11 months now, and believe me, there is enough waste in 
agencies and departments that haven't been efficient or 
effective for the last 40 years. There is where we start. 
Because we know we are going to have disasters--floods and 
hurricanes and earthquakes and fires--and we are not going to 
stop that, but we can mitigate our losses, and I know that the 
Chairman and I and committee Members are devoted to making sure 
that we get the best bang for our buck in the places where we 
see the efficiency, and I want to commend each and every one of 
you because you first of all have had a stellar performance 
today. I learned so much from you and I hope to learn more. But 
what you did not only in my community but across this country 
on how your actions, your knowledge, and your quick service 
saved lives and saved property. So I commend you for that. 
Please continue to educate us. Please don't forget about, I 
would still like to have the meeting in the 10th Congressional 
District with you people or your peers.
    Two thoughts I would live to leave with you. We have to 
work on getting the funds that are available to the 
municipalities faster, but if we have to do something in the 
municipalities to help you get us that money faster, please 
educate us. We didn't have anybody here today--the panel was 
full--from the electric companies, and there were people that 
went a long time without electricity, and I have spent a fair 
amount of time talking with the executives and the workers from 
the respective electric companies, and I just want to put out 
there, just because you don't see a person right there on the 
line does not mean that the electric company isn't working to 
get grids up and functions like that, but we need to also find 
out from these individuals, these companies what we can do to 
help them restore electricity faster than we have been doing.
    Again, I probably have another thousand questions but we 
will do that at some other time. I want to thank you all so 
very much for being here, and I certainly appreciate the 
information you have given us.
    Chairman, I know I have used time than if we had 20 people 
up at this panel but I yield back.
    Mr. Bilirakis. Thank you, and I want to thank you, Tom, for 
your extraordinary service to your constituents. I have seen 
you work in the District of Columbia, and he works in a 
bipartisan fashion and he demands results and he gets them. So 
you are very fortunate, in my opinion, to have a representative 
like Tom Marino. He truly cares about the people, and it shows.
    So I have got to conclude here. I want to thank the 
witnesses for your valuable testimony, and I agree, it was 
great testimony, very productive, very informative. I also want 
to thank the audience, and we will be available one-on-one if 
you have any questions or if you would like to make some 
comments for us. We will be available for a few minutes. We do 
have to drive back to the District of Columbia for votes this 
evening, but I am assured that we will get there in time for 
the votes.
    So the Members of the committee may have some additional 
questions, and I know Tom has some, I have a couple too, of the 
witnesses, and we ask that you respond in writing. The record 
will be open for 10 days.
    So I want to thank the college as well, and the 
subcommittee stands adjourned. Thank you very much for your 
hospitality.
    [Whereupon, at 11:17 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
